<html>
<title> - IMPROVING EFFORTS TO HELP UNEMPLOYED AMERICANS FIND JOBS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
        IMPROVING EFFORTS TO HELP UNEMPLOYED AMERICANS FIND JOBS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 2011

                               __________

                           Serial No. 112-HR1

                               __________

         Printed for the use of the Committee on Ways and Means




                  U.S. GOVERNMENT PRINTING OFFICE
65-329                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  

                      COMMITTEE ON WAYS AND MEANS

                    GEOFF DAVIS, Kentucky, Chairman

ADRIAN SMITH, Nebraska               LLOYD DOGGETT, Texas
ERIK PAULSEN, Minnesota              JIM MCDERMOTT, Washington
RICK BERG, North Dakota              JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana

                       Jon Traub, Staff Director

                  JANICE MAYS, Minority Staff Director



                            C O N T E N T S

                               __________
                                                                   Page

Advisory of February 3, 2011 announcing the hearing..............     2

                               WITNESSES

Kristen Cox, Executive Director, Utah Workforce Services.........     6
Tom Pauken, Chairman, Texas Workforce Commission.................    12
Heather Boushey, Ph.D., Senior Economist, Center for American 
  Progress.......................................................    19
Douglas J. Holmes, President, UWC-Strategic Services on 
  Unemployment and Workers'Compensation..........................    40

                       SUBMISSIONS FOR THE RECORD

Yvonne Goersch...................................................    62
Joyce Fields.....................................................    62
Jennifer Snyder..................................................    64
Lori Parker......................................................    64
Martin G. Thomas, Active Member of the American 99er's Union.....    65
Elizabeth Steere.................................................    66
Rochelle Sevier..................................................    67
Ellen Turner.....................................................    67
Paul Pittman.....................................................    67
Tracy Santee.....................................................    68
Janice Nichols...................................................    69
James Bufton.....................................................    69
Scott Carlson....................................................    70
William Milner...................................................    70


        IMPROVING EFFORTS TO HELP UNEMPLOYED AMERICANS FIND JOBS

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2011

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The committee met, pursuant to call, at 3:48 p.m., in Room 
B-318, Rayburn House Office Building, the Honorable Geoff Davis 
[chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]

HEARING ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

    Davis Announces Hearing on Improving Efforts to Help Unemployed 
                          Americans Find Jobs

February 03, 2011

    Congressman Geoff Davis (R-KY), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on improving efforts to help 
unemployed Americans find jobs. The hearing will take place on 
Thursday, February 10, 2011, in Room B-318 Rayburn House Office 
Building, immediately after a brief Subcommittee organizational meeting 
beginning at 2:00 P.M.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include public and private sector experts on 
unemployment benefits and employment security policies designed to 
promote reemployment. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    In December 2010 (currently the most recent official data; data for 
January 2011 will be released on February 4, 2011), there were 14.5 
million unemployed individuals in the United States; the U.S. 
unemployment rate was above 9 percent for the 20th consecutive month, a 
record dating back to the beginning of official data in 1948; and the 
average duration of unemployment was more than 34 weeks, slightly below 
the all-time high set earlier last year.
      
    To assist unemployed individuals, the federal-state unemployment 
compensation program created by the Social Security Act of 1935 offers 
weekly payments while unemployed individuals search for work. According 
to the U.S. Department of Labor, in order to be eligible for benefits, 
jobless workers must have a history of attachment to the workforce and 
must be able and available for work. Nearly $160 billion in total 
unemployment benefits were paid in fiscal year 2010, counting both 
state and federal benefits, stretching to a combined maximum of up to 
99 weeks per individual in high unemployment states. An additional 
nearly six billion dollars in federal administrative funds were spent 
last year to process unemployment benefits and operate public 
employment offices designed to connect the unemployed with new jobs.
      
    In announcing the hearing, Chairman Davis said, ``This hearing 
starts with the basic question, `Are we doing everything we can to help 
the unemployed find jobs?' In 2010, about 50 million people were hired 
into new positions. But in this recession, unemployed workers have been 
at the back of the pack when it comes to getting hired. Instead, the 
number of unemployed and the length of unemployment durations have 
grown to record levels, despite billions of dollars spent on benefits 
and services designed to help them find new work. This hearing will 
provide an opportunity to review that issue, and ask what we can do to 
make this system work better.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on current policies and programs designed to 
help unemployed individuals return to work and how they can be 
improved.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, February 24, 2011. Finally, 
please note that due to the change in House mail policy, the U.S. 
Capitol Police will refuse sealed-package deliveries to all House 
Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman DAVIS. Good afternoon and welcome.
    Today's hearing is about how we can better help unemployed 
workers return to work. Clearly, we have our work cut out for 
us.
    As the chart that is on the screen shows, our colleagues' 
2009 stimulus plan promised to drive unemployment under 7 
percent by now. Instead, unemployment has now remained at or 
above 9 percent for a record 21 months. The stimulus advocates 
promised 137.5 million jobs by now. Instead, the current number 
is about 7 million fewer. That has left almost 14 million 
workers unemployed, plus record numbers on the sideline of our 
economy. A full 6.2 million are long-term unemployed, and the 
average duration of unemployment is a record 37 weeks. That is 
almost double the record level before this recession.
    To help the unemployed reconnect with work, our Nation 
operates ``employment security'' programs like unemployment 
insurance and employment security offices where laid-off 
workers go to connect with jobs. Last year, we spent a stunning 
$165 billion on those benefits and services. But judging by the 
staggering figures I just mentioned, those benefits and 
services are not succeeding in reconnecting unemployed people 
with jobs at the rates necessary. We need to ask why and 
provide oversight at the subcommittee.
    We know that every year, according to the Department of 
Labor, some 50 million people get hired into new jobs, so 
someone is finding work. But what this chart shows is how the 
unemployed have increasingly been left behind.
    The red line shows the share of the unemployed who stay 
unemployed. That has risen to all-time highs. The blue line 
shows the share of the unemployed who return to work. That 
``success'' rate has fallen to record lows. In fact, this is 
the only recession in 20 years when the unemployed are more 
likely to drop out of the workforce than to find a job.
    This tells us our employment security programs are simply 
not working as intended and in time. Instead of helping the 
unemployed become one of the 50 million new hires every year, 
the unemployed are increasing being left behind. Today's 
hearing is to ask questions and hear perspectives on what we 
can do to turn that around.
    Vice President Biden recently said that the unemployed 
should just ``hang in there'' and wait until jobs return. But, 
at the current pace, it could be 2020 before the U.S. returns 
to full employment. That is a long time to ``hang in there.''
    Fortunately, we don't have to wait that long to hear some 
good ideas from our witnesses and our members. Joining us is a 
distinguished panel of experts to review what can be done and 
in some States is being done to help unemployed workers find 
and take new jobs.
    As we will hear, those policies range from promoting more 
job searches, to better engaging people who need extra 
training, to simply focusing current benefits where the need is 
greatest.
    We also need to remember unemployment benefits are not free 
and are supported by payroll taxes that are already going up 
dramatically. Improving our success in helping more unemployed 
people find jobs will help keep future job-destroying tax hikes 
to a minimum. That is a key goal as well.
    We look forward to all of our witnesses' testimony. Without 
objection, each member will have an opportunity to submit a 
written statement and have it included in the record at this 
point.
    Mr. Doggett, would you care to make an opening statement?
    Mr. DOGGETT. Mr. Chairman, thank you very much.
    You have appropriately raised the right question in this 
first hearing: How do we improve efforts of those who are 
unemployed to find jobs? In that endeavor, I pledge my personal 
and sincere interest in working with you and other Members of 
the Committee in seeking meaningful answers and in working 
together to help unemployed Americans prepare for and find 
work.
    After reviewing the written testimony that has been 
submitted for this hearing, I can see that we have different 
perspectives on the nature of the problem that we face and the 
best way to resolve it. I believe that the problem is 
unemployment, not the unemployed. Too many Americans remain 
unemployed because of a lack of work, not for their lack of 
wanting to work. With the average unemployment benefits 
nationally barely at 70 percent of the poverty line for a 
family of four, there is little incentive to sit home rather 
than to seek meaningful work at a living wage.
    I don't believe in the blame-the-victim approach. After 
all, it is not the unemployed who gambled our economic future 
away on Wall Street, or took huge pay packages as companies 
crumbled, or failed to oversee our financial markets. And yet 
it is their families who are really struggling and paying the 
price for the wrongs of others.
    As a chart that I brought shows, we have about 14 million 
unemployed workers but fewer than 4 million job openings. That 
is why we hear one report after another of employers who post 
jobs being flooded with applicants. For example, I know when 
Delta Airlines in the fall announced that it had 1,000 flight 
attendant openings, it received about 85,000 job applicants. If 
every job opening in America were filled this afternoon, about 
11 million Americans would still not have a job.
    While today's unemployment claims report provides a hopeful 
sign with first-time claims dropping to the lowest level in 
2\1/2\ years, the Congressional Budget Office estimated today 
in the Budget Committee that unemployment will remain above 9 
percent this year and above 8 percent by the end of next year. 
CBO also projects that only 2\1/2\ million jobs will be created 
this year, leaving millions dependent on the unemployment 
insurance system.
    While our first priority must be pursuing the policies that 
encourage job creation, this subcommittee's immediate 
responsibilities focus more on what to do in the meantime for 
the many Americans who, through no fault of their own, have 
lost a job and have not been able to find new employment. In 
this endeavor, our States are the laboratories of democracy. We 
look to them for new ways to resolve this challenge. 
Unfortunately, not all of these experiences are successful.
    With my home State of Texas, there have been some 
successes, and there is also an example of what happens when 
ideological constraints and political imperatives produce 
decisions that harm both employers and employees. Texas 
employers will be paying more because our Governor insisted on 
some unemployed receiving less. The Governor rejected $555 
million in Federal support for the unemployed in 2009, and 
Texas is now raising additional taxes on employers and 
incurring more public debt as a result of that.
    I believe that our leadership has been, number one, 
unexcelled in the country in damning the Economic Recovery Act, 
but without the billions that has been accepted in Texas, we 
would have a more gargantuan budget hole than the $27 billion 
in which our State is now enveloped. Nor would the Texas Back 
to Work Program, about which we will hear more from 
Commissioner Pauken, have been more than a shadow of itself but 
for the Federal funding received by Texas through the Recovery 
Act.
    During the last 2 years, over $6 billion in federally 
funded unemployment benefits were provided to laid-off workers 
in Texas. Texas has been receiving over $4 in Federal 
unemployment funds for every dollar in Federal unemployment 
taxes paid in the State. Last year, Democrats worked to pass 
legislation to extend funds for the Texas Back to Work Program 
and made several efforts to extend unemployment benefits for 
those across the country. Unfortunately, Senate Republicans 
blocked action on that.
    I expected that the focus after all of the criticism about 
where are the jobs would be on job creation. Unfortunately, 
thus far in the broader House we have focused on health 
insurance reform, criticizing the United Nations, and 
encouraging special interest financing of Presidential 
campaigns. I hope the broader House will move to focus on job 
creation now as our subcommittee continues to work on 
unemployment.
    Thank you, Mr. Chairman.
    Chairman DAVIS. Thank you, Mr. Doggett.
    Before we move on to our testimony, I want to remind our 
witnesses to limit their oral statement to 5 minutes.
    Without objection, all of the written testimony will be 
made part of the permanent record.
    On our distinguished panel this afternoon, we will be 
hearing first from Kristen Cox, Executive Director of Workforce 
Services from the State of Utah; Tom Pauken, Chairman of the 
Texas Workforce Commission; Heather Boushey, Senior Economist, 
Center for American Progress; and Douglas Holmes, President, 
UWC-Strategic Services on Unemployment and Workers' 
Compensation.
    Ms. Cox, you may proceed with your testimony.
    Ms. COX. As a favor, because I am blind, will you let me 
know when I have 1 minute remaining?
    Chairman DAVIS. Yes. We will give you a 1-minute warning.

         STATEMENT OF KRISTEN COX, EXECUTIVE DIRECTOR,
                    UTAH WORKFORCE SERVICES

    Ms. COX. Thank you.
    While Utah began the recession with one of the lowest total 
unemployment rates in the country, the rate has steadily risen 
to 7.5 percent. Utah's economy has expanded, and we are 
averaging 3.5 percent growth. That is 3\1/2\ times the national 
average. We have one of the lowest duration rates in the 
country of 16.7 percent. We have seen job growth at 1.5 
percent, and our unemployment rate is just about 7.5, in the 
bottom third. So that environment we think has yielded some 
good results for our UI claimants and UI trust fund, as well as 
getting people back to work.
    I will go into four strategies that we think are essential 
to pay attention to if you really want to look at reemployment. 
But a key thing for me to point out is that any reemployment 
initiative to date from my perspective is by State initiative 
and not by Federal design. The Federal funding streams and the 
programs don't necessarily sustain internal policies that allow 
for reemployment. They happen at the Federal level through 
grants, maybe haphazard initiatives, but nothing that is 
sustainable.
    So States who want to take the initiative, we have to do a 
lot of work to blend different funding streams together to make 
that happen. I will point to some things that we think would be 
helpful for us on the State end.
    Four things that we think we should pay attention to on the 
ground: Number one is claimant expectations and requirements; 
number two is employer incentives; number three is around 
program integration and system design; and, four, around 
resources and flexibility.
    I have lots of detail, but I will try to give you one or 
two examples in each of those.
    Let me first talk about customer expectations. And, 
Representative Doggett, we certainly understand that most 
people on UI want to go back to work, but we want to reinforce 
at every level of their experience that going back to work is a 
full-time job. So from the very beginning of them entering the 
system, they are required to register with our labor exchange. 
We require mandatory workshop participation with our Workforce 
Investment Act dollars.
    So if we see an industry that is growing, for example, in 
trucking, we had an area in our State that was growing, we will 
bring UI claimants in to match and do jobs fairs with those 
employers who are willing to hire. If UI claimants are not 
willing to come in, they jeopardize their UI benefits. In fact, 
we have found over this last year 20 percent of our UI 
claimants did not want to participate in those type of job 
fairs, and they lost their benefits. So we know most people 
want to participate and do a good job, but those who are not 
willing to do that, we don't think should stay in their 
benefits.
    So those are a few things on customer claimants. We could 
get into much more detail, but setting that expectation from 
your marketing to what they see on their screens when they 
check their benefits is essential, and we have been able to 
integrate that not just in our UI but in our Workforce 
Investment Act site as well.
    Number two, employer incentives. Two pieces on that. Like 
Texas, we have done a Back to Work Program, a similar model. It 
is a way we can reinvest and help employers find incentives to 
hire UI claimants. We give them $2,000 over 4 months if they 
hire a UI claimant and they sustain that employment. It has 
been fairly successful. We may make some changes and tweaks as 
we move forward. But employers have a lot of candidates to 
chose from, as we all know, but we want to make sure our UI 
claimants are front and center, and there are ways to 
incentivize that. Back to Work is one. There are many other 
options in that model.
    We also have a penalties and interest account. All States 
do. It is part of money that we collect from unemployment 
insurance. We have reinvested those funds to help businesses 
expand, retain jobs, and bring new businesses into the State of 
Utah.
    Again, job creation is essential if we are going to put 
people into employment. That is a funding stream we have 
flexibility over, one of the very few, and we are able to 
reinvest that to help businesses stay competitive in Utah.
    Chairman DAVIS. Excuse me, you have 1 minute remaining.
    Ms. COX. Oh, my goodness.
    Let me skip the third thing. The third thing was great.
    I am going to go to the fourth. The thing we really need is 
resource flexibility. We are working against trying to 
integrate WIA funds, Wagner-Peyser funds, UI funds. The UI 
program does not have any waiver authority for States to be 
innovative or progressive. We don't really have a lot of venues 
to do that. So we are left with trying to pull a lot of complex 
pieces together on our own. If we could get waiver authority or 
you guys could grant Department of Labor waiver authority, you 
would start seeing much more innovation coming out of States in 
terms of reemployment.
    The second piece of that, States have UI admin dollars. It 
is Title III money under Section 303 of the Social Security 
act. In Utah, we have been very efficient in our resources. We 
have extra money. We would like to reinvest that into 
reemployment versus just admin, and we don't have the ability 
to do that. We don't think we need more money. We just want 
more flexibility with our current money.
    There are other things that you can do as well with the 
Workforce Reinvestment Act, some of the Wagner-Peyser so you 
could create a true seamless system. But really, from my 
perspective, we feel like we put the money up to the Federal 
Government, it has blown up in a thousand pieces, and down at 
the State level we are trying to put it back together again to 
give a seamless reemployment environment for people.
    A final thing, there needs to be shared responsibility.
    Thank you.
    [The prepared statement of Kristen Cox follows:]

         Prepared Statement of Kristen Cox, Executive Director,
                 Utah Department of Workforce Services

UTAH DEPARTMENT OF WORKFORCE SERVICES RE-EMPLOYMENT STRATEGIES FOR 
        HELPING UNEMPLOYMENT INSURANCE CLAIMANTS RETURN TO WORK

Principle
    Effective re-employment of Unemployment Insurance (UI) claimants is 
fundamental to maintaining the economic well-being of individuals, the 
state, and the nation. Providing re-employment support for UI claimants 
should be an integrated UI, Wagner-Peyser, and WIA service delivery 
effort in partnership with public and private entities.

DWS One-Stop Programs and Services
    Utah's one-stop employment centers provide a comprehensive array of 
services, including job placement, job development, assessment, and job 
training. DWS also provides UI to unemployed workers and supportive 
services for working families in poverty, people with disabilities, and 
the elderly. The result is a seamless service delivery system to 
enhance access to programs and services, which improves economic 
opportunities for DWS customers.

Utah's Current Economic Situation
    <bullet>  While Utah began the recession with one of the lowest 
total unemployment rates in the country, the rate has steadily risen to 
7.5%; however, Utah's UI rate still ranks in the lower third of the 
country.
    <bullet>  Utah's economy has expanded 3.5% annually over the past 
five years--faster than any other state except North Dakota. This is 
3\1/2\ times faster than the United States as a whole.
    <bullet>  Total employment in the United States has shrunk over the 
past five years; however, Utah's employment has increased 1.5% 
annually--the fourth best in the nation.
    <bullet>  Utah household incomes have surged 5% annually--the top 
in the country and twice as fast as the national average.
    <bullet>  U.S. News has compiled a list of the 10 cities where job-
seekers would have the best luck finding a job. Rankings are based on 
the combination of low unemployment rates and an abundance of job 
openings, relative to the number of job-seekers. The U.S. News ranking 
lists Salt Lake City as number 2, with Washington, D.C. ranked as 
number 1.

Key Strategies
    Utah is focusing on four critical strategies for providing pathways 
for re-employment:

    (1) Providing Meaningful UI Claimant Requirements: UI claimants 
must be provided with meaningful expectations that focus claimants on 
returning to the workforce as their top priority.

    <bullet>  In Utah, UI claimants are required to register for work 
with the department's online job board within five business days of 
their initial claim or they are denied benefits.
    <bullet>  Starting in February this year, Utah has doubled the 
minimum work search requirements to four job contacts per week. 
Returning to work should be a full-time job. Not all states require 
this type of activity.
    <bullet>  Utah's UI Worker Profiling and Re-employment Services 
(WPRS) involvement has increased 500% to over 500 claimants per week. 
This process requires a mandatory online UI eligibility review and an 
online orientation and self-assessment for those claimants profiled to 
most likely exhaust benefits.

        <ctr-circle>  Current data suggests higher exhaustion rates 
        among veterans, older workers (55-64), those who have less than 
        high school completion, and those with higher wage replacement 
        rates (weekly benefits divided by weekly base period earnings).
        <ctr-circle>  Data on the current recession also indicates that 
        the duration and exhaustion rates of UI have remained much 
        higher than previous recessions, highlighting the importance of 
        providing meaningful resources and programs to claimants 
        throughout the life of their claim.
        <ctr-circle>  The department is currently looking into optional 
        online workshops as a cost effective alternative to traditional 
        staff assisted workshops.

    <bullet>  DWS has also worked with employers to identify 
occupations in which employment opportunities exist and for which a 
pool of occupationally qualified UI claimants is available. An example 
of this focused re-employment effort is bringing trucking companies 
together with UI claimants who are trained truck drivers. Suitable 
claimants are selected and invited to participate in these targeted job 
fairs. Claimants who receive the job fair notification and fail to 
participate are found no longer eligible for UI benefits.
    <bullet>  Utah has initiated several pilot projects, including 
mandatory workshop attendance, to facilitate job preparation 
activities. Preliminary feedback from claimants is very positive. 
Current workshop data shows:

        <ctr-circle>  51 percent of UI claimants who were required to 
        attend, did attend
        <ctr-circle>  13 percent went back to work
        <ctr-circle>  16 percent were deferred due to a seasonal layoff
        <ctr-circle>  20 percent who did not attend a workshop had 
        their UI claim terminated

    (2) Providing Employer Incentives: Effective targeted employer 
incentives are critical to not only incentivizing employers to hire new 
workers, but also to retain existing work from potentially being 
outsourced.

    <bullet>  DWS has implemented a ``Back to Work'' initiative to 
provide Utah employers with an opportunity to re-employ up to 2,500 UI 
claimants and receive a wage subsidy of up to $2,000 per participant 
for each employee hired.

        <ctr-circle>  ARRA TANF Contingency funds and TANF funds have 
        been used to cover this temporary subsidy, and UI Reed Act 
        funds are being used for the administrative costs.
        <ctr-circle>  Approximately 1,000 UI claimants and youth are 
        currently enrolled.

    <bullet>  DWS has reinvested UI penalty and interest funds to 
assist companies with their training of new and incumbent workers.

        <ctr-circle>  The training curricula may be delivered in-house 
        or hosted by an external education institution to support both 
        existing and new companies in Utah. Funding is conditional on 
        documented outcomes.
        <ctr-circle>  The projects that have been approved so far are 
        expected to help bring 1,720 new jobs to Utah, over $1 billion 
        in new and retained state wages, $69.4 million in new state 
        revenue, and over $100 million in capital investment to the 
        state.

    <bullet>  DWS has reinvested the remaining penalty and interest 
funds to provide incentives to support local employers with workforce 
development. Generally, there must be an equal financial commitment on 
the part of the employer.

        <ctr-circle>  The approved projects are expected to support the 
        UI trust fund because people become re-employed more quickly. 
        During the first few months of this new initiative, nearly 400 
        jobs were created or retained.

                Sec.   Rural areas could see $5 million in direct and 
                countable investments. The additional pending projects, 
                if approved and implemented, could help bring another 
                710 new jobs to Utah which could result in $27 million 
                in wages over the next 20 years. The average cost for 
                creating or retaining a job is approximately $600--a 
                significant return on investment.

    (3) Increasing Program and Funding Integration

    <bullet>  Using a $1.3 million federal Re-employment and 
Eligibility Assessment (REA) grant, DWS has implemented an REA program. 
This program focuses on providing re-employment support to 10,000 
claimants who are most likely to exhaust their UI benefits. The REA 
program is similar to the current Worker Profiling system, with the 
addition of a mandatory staff assisted interview to provide counseling, 
more in-depth assessments, and the development of a work plan.

        <ctr-circle>  The grant provides for collecting data on a 
        similar ``control group'' of claimants to measure what impact 
        this early intervention has on the long-term duration of a 
        claimant's collecting benefits.
        <ctr-circle>  Initial data outcomes will be available this 
        summer. However, preliminary results indicate that 
        approximately 25% of the claimants fail to attend their 
        appointment with their employment counselor and are thus denied 
        future benefits.

                Sec.   About $440,000 of ARRA Stimulus funding was 
                devoted to integrating our current job match system 
                with our UI benefits system. Investing in ongoing 
                automated technology tools is critical to the ongoing 
                future employment needs of employers and claimants--
                long after staff assisted funding is no longer 
                available.
                Sec.   The integrated systems gather more accurate and 
                complete data from job seekers (UI claimants) and 
                eliminate redundant data collection.
                Sec.   New AutoCoder software assigns ONET codes to job 
                seekers and employer job orders, and these assigned 
                ONET codes are transferred to our labor market 
                information (LMI) team. The LMI team provides 
                individually relevant job market information to 
                claimants on their personalized My UI Account web page.

    <bullet>  DWS has effectively used ARRA Re-employment Services and 
Wagner-Peyser funding to increase staffing for Employee Connection 
Teams in Utah's Employment Centers, thereby providing more one-on-one 
re-employment assistance to UI claimants.

    (4) Supporting Increased Flexibility of Resources: Separate federal 
funding sources and associated program boundaries can present obstacles 
to integrated service delivery. Federal law and Department of Labor 
regulations place clear limitations on how UI, Wagner-Peyser, and WIA 
funds can be spent. While the intent of the limitations is to ensure 
effective and appropriate program administration, the effect can be to 
make cross-program integration difficult.

    <bullet>  WIA Title I funds may not be spent on employment 
generating activities, economic development, and other activities, 
unless they are directly related to training for eligible individuals. 
Providing less restrictive regulations for WIA statewide activity funds 
could provide greater flexibility in getting individuals re-employed. 
Other program issues to consider include:

        <ctr-circle>  More flexibility in moving customer training 
        funds between Youth and Adult/Dislocated Worker programs to 
        facilitate re-allocating funds where there is the most need.
        <ctr-circle>  Real-time access to federal data about customers. 
        This could reduce administrative costs, support a more 
        streamlined process for the customer, and ensure more accurate 
        delivery of services. For example, access to Social Security 
        information (SSN verification and benefit payments) is 
        available to states for public assistance programs such as 
        TANF, SNAP, and Medicaid. However, it is not currently 
        available to support other programs such as WIA and WOTC.

    <bullet>  Expanding the scope of the UI program to achieve claimant 
re-employment would be an efficient use of funds and would help 
claimants become re-employed as quickly as possible.

        <ctr-circle>  Although state workforce agencies across the 
        nation are organized differently, each has an established 
        relationship with UI claimants. This relationship is founded on 
        the administrative principles of accountability and 
        enforceability. Allowing UI to broaden its involvement into 
        supporting claimant re-employment is a natural extension to its 
        existing role of assuring UI claimants are actively seeking 
        work.
        <ctr-circle>  Section 303(a)(8), SSA, provides that, as a 
        condition of receiving a Title III grant, the state may expend 
        its Title III grant ``solely . . . for the proper and efficient 
        administration'' of the state's unemployment compensation law.
        <ctr-circle>  Broadening the definition of the ``proper and 
        efficient administration'' of UI would help support the goal of 
        cross-program integration among UI, Wagner-Peyser, and WIA and 
        provide program administrators greater flexibility and 
        resources to accomplish effective re-employment initiatives.
        <ctr-circle>  It would not be our intent to allow a state that 
        is struggling to maintain its core UI operational 
        responsibilities to inappropriately divert UI administrative 
        grant funds to expanded activities and further erode their UI 
        program. However, perhaps some flexibility could be granted 
        through law, rule, or administrative policy changes or through 
        a waiver process. This could take into account some minimum UI 
        performance levels to allow using funds that directly benefit 
        UI claimant re-employment. For example, the ``Utah Back to 
        Work'' wage subsidy program referred to earlier required 
        extensive marketing to claimants and employers. Even though the 
        program was established to help claimants become re-employed 
        earlier and help safeguard the UI trust fund, UI administrative 
        grant funds could not be used to notify claimants about the 
        program.
        <ctr-circle>  WIA, TANF, and SNAP programs offer waivers and 
        more flexibility. If unemployment is one of our largest issues, 
        why not give states more flexible options to help re-employ job 
        seekers?

    <bullet>  DOL has recently shown good leadership with its focus on 
re-employment, its wage subsidy grants, and state consortium 
initiatives. It is time to connect benefits and employment into a 
seamless service delivery strategy without creating funding barriers.
    <bullet>  Utah has implemented multiple initiatives to help UI 
claimants become re-employed sooner. A few of these initiatives have 
been recognized at the national level. The U.S. Department of Labor 
awarded DWS the 2010 UI Innovation Award for our electronic 
correspondence system and the American Institute of Full Employment 
awarded DWS the 2010 Best Practices Award for our on-line worker 
profiling re-employment service program. These initiatives have helped 
Utah enjoy one of the lowest average UI duration rates in the country--
16.6 weeks, despite having a fairly high wage replacement rate. While 
we have made significant progress, our goal is to continually strive to 
improve services for employers and job seekers.

Summary of Recommendations
    <bullet>  Establish clear expectations for claimants that re-
employment is a priority and requires a full-time commitment.
    <bullet>  Provide employers with wage, training, and tax incentives 
that provide economic benefits for employers to expand or retain their 
workforce.
    <bullet>  Increase program and funding integration that supports 
effective meshing of UI claimants with employers' workforce needs. 
Expansion of the Worker Profiling and Re-employment Services and REA 
grants are good examples of integrated funding between UI claimants and 
re-employment services.

    Increase flexibility of resources to make cross-program integration 
more efficient without creating funding barriers or jeopardizing 
program accountability.

                                 <F-dash>

    Chairman DAVIS. Your time has expired. Thank you.
    Now I have the pleasure of recognizing our fellow colleague 
on the Ways and Means Committee, the gentleman from Texas, Mr. 
Brady, who would like to offer an introduction for his fellow 
Texan, Mr. Pauken.
    Mr. BRADY. Thank you for letting me crash the party, 
Chairman Davis, and Ranking Member Doggett. I am grateful to 
introduce my friend and a true Texas patriot to the 
subcommittee today.
    Chairman of the Texas Workforce Commission Tom Pauken is an 
Army veteran with a distinguished record of service to his 
country and our State. His career in the public and private 
sectors has given him valuable insight on improving efforts to 
help unemployed Americans find jobs. As a small business owner 
and the vice president of a venture capital company, Tom knows 
what it takes to meet a payroll and create jobs. He knows the 
challenges businesses are facing in this economy and the 
hardships job seekers experience when they look for work or try 
and learn new skills.
    His public service has also prepared him well for the 
current position. While serving in the Reagan administration as 
director of action, Tom founded the Vietnam Veterans Leadership 
Program that created a nationwide network to assist unemployed 
and underemployed Vietnam veterans find good jobs with a 
future.
    Since taking over as chairman in our State, he has used his 
experience to create the Texas Veterans Leadership Program. 
This is staffed and managed by veterans of Afghanistan and Iraq 
and seeks to help Texas veterans transition into civilian life 
by providing employment and training services, resources, and 
referral.
    Tom has led the way in implementing the new Texas Back to 
Work Program which encourages employers to hire job seekers who 
have been laid off through no fault of their own. We couldn't 
have a better leader than Tom heading up our State's workforce 
development agency. Despite the difficult recession, Texas 
remained a national leader in job creation, netting 231,000 new 
jobs last year.
    Tom Pauken has been a successful and innovative leader in 
the military and business and the Federal Government and State 
government; and I am certain his insights, Mr. Chairman, will 
be of value to the committee. I am honored to introduce him.
    Chairman DAVIS. Thank you, Mr. Brady.
    Mr. Pauken, you may proceed.

               STATEMENT OF TOM PAUKEN, CHAIRMAN,
                   TEXAS WORKFORCE COMMISSION

    Mr. PAUKEN. Thank you, Chairman Davis and distinguished 
subcommittee minority leader, Congressman Doggett, and thanks 
for those kind words, Congressman Brady.
    Congressman Doggett and I have a slightly different 
perspective on the Texas model. In the last decade, as you 
know, Congressman, we have created in Texas over 640,000 jobs 
in the private sector. That is at a time when every other large 
labor market State of the 10 largest labor market States have 
lost jobs. In fact, during that decade, the country has lost 
3.2 million private sector jobs. And I think it is the business 
climate that has attracted people from other States.
    But what I worry about, quite frankly, is I think we are in 
a period of structural unemployment, and we need to get beyond 
partisanship and figure out ways to bring jobs home to America 
and put people back to work. And I will address that in a 
moment as I did in my written testimony.
    But, first, I would like to address the Texas Back to Work 
Program. It was an initiative primarily funded by State funds, 
a modest amount. And what it was designed to do was link 
employers with people of modest means who lost their jobs 
through no fault of their own, making up to $15 an hour by 
providing incentives to the companies to hire people off the 
unemployment roles. We have hired to date 11,000. That is a 
pretty good number, and hopefully we will do a lot more.
    Most of it has been State supported. We did have some 
discretionary Federal funding; and, as Kristen said earlier, we 
would very much like to see some discretion at the Federal 
level to be able to continue that program and for other States, 
if they choose to move in that direction, to help put people 
back to work.
    I think it is a win/win situation for Texas employers and 
for those people who are unemployed and are getting back to 
work.
    Secondly, I have a modest suggestion for those who are on 
extended benefits. It is really a series of options. Really, 
the concept, we call it Train While They Claim. Those people 
who are on Federal and extended benefits, they would have three 
options:
    Number one, if they don't have their high school degree, 
let them get their GED, study for that. Existing funds are 
available. Just put them at the first of the line, those who 
are unemployed.
    Option B, if they don't fit into that category, allow 
people to go to postsecondary or career or community colleges 
in order to get vocational and technical training to upgrade 
their skills and be available for the workforce. Again, similar 
to what we do with Federal displaced workers, you simply allow 
these people who are unemployed to go to the front of the line.
    Third, those people who don't do A or B would be required 
to do community service with their local communities, many of 
which are laying off people, or with fine nonprofits such as 
Habitat for Humanity in order to pay for those extended 
benefits. And if they choose not to do A, B, or C, then they 
would no longer be receiving unemployment benefits. This is an 
approach that would make sense, help people, and get people 
back to work.
    Finally, I would simply say in an overview, particularly 
since you are on the Ways and Means Committee, in my judgment, 
we have got to change the way we tax businesses. We have the 
most onerous business tax system in the world, with a 35 
percent tax rate, a 6.2 percent employer portion of the payroll 
tax. I believe very strongly it should be pulled out at its 
roots and replaced with a revenue neutral 8 percent business 
consumption tax which would be border adjusted. All goods and 
services coming into the U.S. would have to pay that tax. All 
exports, companies exporting would get a credit against their 
business consumption tax.
    It levels the playing field with our trading competitors. 
And, currently, we are at an approximately 18 to 19 percent 
disadvantage with our trading competitors around the world. It 
would also bring jobs home. It would restore and begin to 
build--rebuild our manufacturing base. We have lost one-third 
of our U.S. manufacturing base over the last decade. That is 
5\1/2\ million good American jobs which have been shipped 
overseas, outsourced, or simply gone away. That is why I 
believe we are in a structural unemployment situation and in 
the most serious national recession since the time of the Great 
Depression.
    Bold action is called for. I think this is an approach. We 
can do all of the things at the margin. I think they are very 
important. But, ultimately, I think we have to bring jobs home 
to America.
    Finally, I beg to disagree with Congressman Doggett, but, 
quite frankly, we were willing to come up with a program in 
order to get that Federal funding, to do what Congress asked, 
but simply allow our State law to revert to the preexisting law 
once the Federal funds were fully expended. I think this was, 
quite frankly, an overreach of the Federal Government in trying 
to federalize or mandate what States had to do with respect to 
unemployment benefits.
    We stand ready to work with the Congress in order to get 
that money back for Texas, which is our money, and we are a 
donor State. We only get 35 cents on a dollar.
    [The prepared statement of Tom Pauken follows:]

              Prepared Statement of Tom Pauken, Chairman,
                       Texas Workforce Commission

    Thank you Chairman Davis, Ranking Member Doggett and distinguished 
Members of the Subcommittee for allowing me to submit this written 
testimony.
    Texas has an important story to tell and because I believe our 
experience can help policymakers here and in other states address the 
problem of unemployment.
    Texas has weathered the current recession better than any other 
large state. While we have not been immune to its effects, consider 
these numbers:
    Between December 2000 and December 2010, Texas created 640,600 
private sector jobs, according to recent Labor Department reports. That 
is an 8% increase over the last decade. During that same period of 
time, every other of the ten largest labor market states lost private 
sector jobs, and the nation as a whole lost more than 3.2 million such 
jobs.
    There are many reasons why Texas has fared better than other states 
during the downturn. Governor Perry and the Texas Legislature have 
instituted polices of fiscal restraint and lower taxes that have made 
Texas the number one place for business in our nation. And thanks to 
our state legislature, the Texas Workforce Commission has administered 
a new program called Texas Back to Work designed to encourage employers 
to hire Texans who are unemployed and who have lost their jobs through 
no fault of their own. More than 10,000 unemployed Texans have been 
hired as a result of the program and this initiative received the 
Department of Labor's best practices award this past fall.
    The program provides an incentive of up to $2,000 for hiring 
qualified UI claimants with the goal of rapid reintegration into the 
workplace. Employers train, develop and oversee new employees with the 
purpose of retaining the new hire after an initial 4 month period in 
order to receive the full incentive.
    The program has been a win-win for employers, job seekers, and the 
taxpayers of Texas.
    Of the participants in the program, two thirds have successfully 
completed, with 89% of them continuing to show wages in the following 
quarter. Program wide, 75% of participants whether they complete or not 
show wages in the following quarter.
    More importantly, this program helps Texas businesses with the 
critical task of maintaining an up-to-date labor force, while also 
helping unemployed Texans get off the rolls of UI claimants and obtain 
what they truly seek--a job, not benefits.
    Texas Back to Work was funded with seed money provided by our 
legislature and we later extended the program with federal funds. I 
have included a detailed summary of the Texas Back to Work program as 
part of this testimony. Please refer to Attachment 1 for more details 
on the success of the program.
    We believe other states would benefit from following Texas' 
example, and I would recommend that Congress pass legislation allowing 
all states the option of using federal and state emergency and extended 
benefit funds to pursue this cost-effective measure for job-creation. I 
have included draft language for your consideration to allow states the 
flexibility to use emergency and extended benefit funds for job subsidy 
programs. Please refer to Attachment 2. Now is the time to be 
proactive, before we find ourselves in January of next year, with 
extended benefits expiring and wondering how much more impact we could 
have had.
    There are additional changes we believe could make the current 
system more effective.
    I recommend that, as a condition for receiving extended 
unemployment benefits, recipients would have an option to ``Train While 
They Claim''. Those without a high school diploma could choose to study 
for their GED. UI claimants in that category would be entitled to first 
priority for participation in existing federally funded Adult Basic 
Education programs.
    Those with a high school degree, but lacking specific vocational 
training, would be able to receive job skills training. Again, this 
would not require an increase in federal funding, but simply give 
claimants top priority to participate in existing federally funded 
training programs.
    Alternatively, those who don't choose to get a GED or receive 
additional skills training would be required to gain additional on-the-
job experience or training by volunteering for community service work 
for public institutions or approved non-profits like Habitat for 
Humanity. Those who refuse to participate in one of these three options 
would no longer be entitled to receive extended unemployment benefits.
    I also want to bring your attention to an unprecedented overreach 
of federal authority over state unemployment statutes which was part of 
the American Recovery and Reinvestment Act of 2009. Texas was denied 
$550 million allocated to us by the Act--funds that would have been 
used to pay unemployed workers in our state. That federal legislation 
mandated that, in order to receive those funds, not only was the Texas 
Legislature required to make changes to our laws that would have 
expanded the number of people eligible to receive unemployment 
benefits, but our legislature was prohibited from including a sunset 
provision that would have allowed these changes to expire once the 
federal funds had been completely exhausted for their intended purpose.
    No other federal legislation that I am aware of continues to have 
strings attached to it after the funding is gone. Such legislation is a 
first step in the Federal Government taking over all state unemployment 
laws in the country. These provisions need to be repealed.
    I would ask the distinguished members here today to initiate 
legislation that would amend ARRA and allow Texas to receive the money 
that has already been set aside for us. Texas is not asking for money 
that is not ours to begin with. Texas is a donor state in the Federal 
Unemployment Insurance system. For every dollar we contribute, we 
receive only 35 cents back.
    Finally, I would be remiss if I did not emphasize that the key to 
creating jobs is to grow the private sector. Government programs, no 
matter how innovative, cannot bring about the kind of fundamental 
change that is needed to put America back to work.
    We currently have a corporate tax system that rewards American 
businesses for taking on debt--which is deductible--while punitively 
taxing employment, savings, and capital investment--the engines of 
economic growth and job creation in the private sector. This is an 
incentive to export prosperity and export American jobs overseas--which 
is precisely what has happened over the past decade.
    The best way to address this problem is to change the way we tax 
businesses. Let's replace our onerous corporate tax system with a 
revenue-neutral, 8% business-consumption tax that would be border-
adjusted.
    This new approach to taxing business would raise just as much in 
revenues, if not more, than the current system of taxation. All goods 
and services coming into the U.S. would pay the 8% tax while all 
exports would receive a comparable tax credit as an offset to its 
company's business consumption tax. This would reduce the outsourcing 
of American jobs, encourage long-term investment in U.S. businesses, 
rebuild our manufacturing base, reduce our trade deficits and put 
business owners back in charge of the American economy. This is a real 
economic stimulus plan to get Americans back to work.

                              Attachment 1

    The Texas Back to Work Program offers a fixed subsidy of $2000 to 
private sector employers who hire claimants of UI making less than $15/
hour in their job before being laid off. The program provides a tiered 
payment plan so that employers do not get the full subsidy unless the 
claimant remains employed with the employer for 4 months at 30 hours 
per week or more.
    Claimants are offered jobs that qualify as ``suitable employment'' 
consistent with UI regulations. They may or may not know that the 
employer is receiving a subsidy. The job must be full time at better 
than minimum wage. The employer is to treat the TBTW hire as he would 
any other new employee to the business. Wages paid and hours worked are 
verified before payment is made.
    TWC has done extensive publicizing of the TBTW program including 
through the Governor's Small Business Conferences. In addition, TWC 
created a TBTW certificate that it provides TBTW-eligible claimants so 
that they can use it in the application process to educate employers 
about the program and to show that they are TBTW-eligible as an 
inducement to the employer.
    These efforts have proven very effective because after a slow start 
Texas Back to Work has placed 10,332 claimants in a little over a year 
and continues to make roughly 250 placements per week. This includes 
claimants at all points in the claim process including those:

        <bullet>  Receiving state UI benefits (first 26 weeks);
        <bullet>  Receiving extended federal benefits; or
        <bullet>  Those who have exhausted all benefits and had not 
        returned to work yet.

TBTW by the Numbers:
        <bullet>  Texas Back to Work Placements--10,332 claimants 
        placed
        <bullet>  # Employers Served--2757
        <bullet>  Percent Completed Subsidized Period--65.5%
        <bullet>  Avg. Wages before Lay Off--Using November Analysis 
        (7558 claims) $20,663
        <bullet>  Avg. Wages with Subsidized Job--Again, using 
        November's Analysis $18,866.87 (91.31% wage replacement rate--
        for point of reference, 91% used to be considered very good 
        wage replacement under WIA DW). Considering that many of the UI 
        claimants served have been unemployed for extended periods, we 
        believe this a very good outcome.
        <bullet>  Percent of TBTW participants with wages in 1st 
        Quarter after Subsidy Completed--

                Overall--75%
                Successful Completers--89%

           (Preliminary analysis indicates that nearly 87% of the 89% 
        were still employed with the same employer.)

                              Attachment 2

    The following amendments are proposed to create a wage subsidy 
option for the States out of funding from the Emergency Unemployment 
Compensation Benefits Program and the Extended Benefits Program. The 
creation of this option would allow States the alternative of providing 
up to thirteen weeks of wage subsidy, for the benefit of the claimant, 
to employers for the reemployment of individuals who qualify for 
further extended benefits. Funding for this subsidized option would not 
exceed the individual's weekly benefit amount and would not be 
permitted in any case where it would displace an employee.
    The language of the proposed amendments are underlined and 
contained within the statutory provisions in order to provide context.
    Because the claimants would be participating in subsidized 
reemployment under this program, it is anticipated that the claimants 
would be treated in the same manner as participants in the Texas Back 
to Work program.

             TITLE IV--EMERGENCY UNEMPLOYMENT COMPENSATION
                        FEDERAL-STATE AGREEMENTS
                      << 26 USCA Sec. 3304 NOTE >>

    SEC. 4001. (a) IN GENERAL.--Any State which desires to do so may 
enter into and participate in an agreement under this title with the 
Secretary of Labor (in this title referred to as the ``Secretary''). 
Any State which is a party to an agreement under this title may, upon 
providing 30 days' written notice to the Secretary, terminate such 
agreement.
    (b) PROVISIONS OF AGREEMENT.--Any agreement under subsection (a) 
shall provide that the State agency of the State will make payments of 
emergency unemployment compensation to individuals who--

          (1) have exhausted all rights to regular compensation under 
        the State law or under Federal law with respect to a benefit 
        year (excluding any benefit year that ended before May 1, 
        2007);
          (2) have no rights to regular compensation or extended 
        compensation with respect to a week under such law or any other 
        State unemployment compensation law or to compensation under 
        any other Federal law (except as provided under subsection 
        (e)); and
          (3) are not receiving compensation with respect to such week 
        under the unemployment compensation law of Canada.

    (c) EXHAUSTION OF BENEFITS.--For purposes of subsection (b)(1), an 
individual shall be deemed to have exhausted such individual's rights 
to regular compensation under a State law when--

          (1) no payments of regular compensation can be made under 
        such law because such individual has received all regular 
        compensation available to such individual based on employment 
        or wages during such individual's base period; or
          (2) such individual's rights to such compensation have been 
        terminated by reason of the expiration of the benefit year with 
        respect to which such rights existed.

    (d) WEEKLY BENEFIT AMOUNT, ETC.--For purposes of any agreement 
under this title--

          (1) the amount of emergency unemployment compensation which 
        shall be payable to any individual for any week of total 
        unemployment shall be equal to the amount of the regular 
        compensation (including dependents' allowances) payable to such 
        individual during such individual's benefit year under the 
        State law for a week of total unemployment;
          (2) the terms and conditions of the State law which apply to 
        claims for regular compensation and to the payment thereof 
        shall apply to claims for emergency unemployment compensation 
        and the payment thereof, except--

                  (A) that an individual shall not be eligible for 
                emergency unemployment compensation under this title 
                unless, in the base period with respect to which the 
                individual exhausted all rights to regular compensation 
                under the State law, the individual had 20 weeks of 
                full-time insured employment or the equivalent in 
                insured wages, as determined under the provisions of 
                the State law implementing section 202(a)(5) of the 
                Federal-State Extended Unemployment Compensation Act of 
                1970 (26 U.S.C. 3304 note); and
                  (B) where otherwise inconsistent with the provisions 
                of this title or with the regulations or operating 
                instructions of the Secretary promulgated to carry out 
                this title; and

          (3) the maximum amount of emergency unemployment compensation 
        payable to any individual for whom an emergency unemployment 
        compensation account is established under Section 4002 shall 
        not exceed the amount established in such account for such 
        individual.; and
          (4) in the alternative, a State may provide a wage subsidy 
        from the individual's emergency unemployment compensation 
        account in an amount per week no greater than the weekly 
        benefit amount, for the benefit of the individual eligible for 
        emergency unemployment compensation benefits, to an employer 
        who provides reemployment of the individual for up to thirteen 
        weeks. The subsidized reemployment shall not displace an 
        employee.

    (e) ELECTION BY STATES.--Notwithstanding any other provision of 
Federal law (and if State law permits), the Governor of a State that is 
in an extended benefit period may provide for the payment of emergency 
unemployment compensation prior to extended compensation to individuals 
who otherwise meet the requirements of this section.
    (f) UNAUTHORIZED ALIENS INELIGIBLE.--A State shall require as a 
condition of eligibility for emergency unemployment compensation under 
this Act that each alien who receives such compensation must be legally 
authorized to work in the United States, as defined for purposes of the 
Federal Unemployment Tax Act (26 U.S.C. 3301 et seq.). In determining 
whether an alien meets the requirements of this subsection, a State 
must follow the procedures provided in section 1137(d) of the Social 
Security Act (42 U.S.C. 1320b-7(d)).

   PAYMENTS TO STATES HAVING AGREEMENTS FOR THE PAYMENT OF EMERGENCY 
                       UNEMPLOYMENT COMPENSATION
                      << 26 USCA Sec. 3304 NOTE >>

    SEC. 4003. (a) GENERAL RULE.--There shall be paid to each State 
that has entered into an agreement under this title an amount equal to 
100 percent of the emergency unemployment compensation paid to 
individuals and the emergency unemployment compensation wage subsidies 
paid for reemployment of individuals by the State pursuant to such 
agreement.
    (b) TREATMENT OF REIMBURSABLE COMPENSATION.--No payment shall be 
made to any State under this section in respect of any compensation to 
the extent the State is entitled to reimbursement in respect of such 
compensation under the provisions of any Federal law other than this 
title or chapter 85 of Title 5, United States Code. A State shall not 
be entitled to any reimbursement under such chapter 85 in respect of 
any compensation to the extent the State is entitled to reimbursement 
under this title in respect of such compensation.
    (c) DETERMINATION OF AMOUNT.--Sums payable to any State by reason 
of such State having an agreement under this title shall be payable, 
either in advance or by way of reimbursement (as may be determined by 
the Secretary), in such amounts as the Secretary estimates the State 
will be entitled to receive under this title for each calendar month, 
reduced or increased, as the case may be, by any amount by which the 
Secretary finds that the Secretary's estimates for any prior calendar 
month were greater or less than the amounts which should have been paid 
to the State. Such estimates may be made on the basis of such 
statistical, sampling, or other method as may be agreed upon by the 
Secretary and the State agency of the State involved.

                      << 26 USCA Sec. 3304 NOTE >>

      Federal-State Extended Unemployment Compensation Act of 1970
``Sec. 202 [Payment of extended compensation].
    ``(a) [State law requirements] (1) For purposes of section 
3304(a)(11) of the Internal Revenue Code of 1986 [(formerly I.R.C. 
1954) subsec. (a)(11) of this section] a State law shall provide that 
payment of extended compensation shall be made, for any week of 
unemployment which begins in the individual's eligibility period, to 
individuals who have exhausted all rights to regular compensation under 
the State law and who have no rights to regular compensation with 
respect to such week under such law or any other State unemployment 
compensation law or to compensation under any other Federal law and are 
not receiving compensation with respect to such week under the 
unemployment compensation law of Canada. For purposes of the preceding 
sentence, an individual shall have exhausted his rights to regular 
compensation under a State law (A) when no payments of regular 
compensation can be made under such law because such individual has 
received all regular compensation available to him based on employment 
or wages during his base period, or (B) when his rights to such 
compensation having terminated by reason of the expiration of the 
benefit year with respect to which such rights existed. In the 
alternative, a State may provide a wage subsidy from the individual's 
extended compensation account in an amount per week no greater than the 
weekly benefit amount, for the benefit of the individual eligible for 
extended compensation, to an employer who provides reemployment of the 
individual for up to thirteen weeks. The subsidized reemployment shall 
not displace an employee.

    ``(2) Except where inconsistent with the provisions of this title 
[this note], the terms and conditions of the State law which apply to 
claims for regular compensation and to the payment thereof shall apply 
to claims for extended compensation and to the payment thereof.

                      << 26 USCA Sec. 3304 NOTE >>

``Sec. 204 [Payments to States].
    (a) [Amount payable] (1) There shall be paid to each State an 
amount equal to one-half of the sum of--

          ``(A) the sharable extended compensation, and
          ``(B) the sharable regular compensation,

 paid to individuals and the extended compensation wage subsidies paid 
for reemployment of individuals under the State law.

    ``(2) No payment shall be made to any State under this subsection 
in respect of compensation (A) for which the State is entitled to 
reimbursement under the provisions of any Federal law other than this 
Act, (B) paid for the first week in an individual's eligibility period 
for which extended compensation or sharable regular compensation is 
paid, if the State law of such State provides for payment (at any time 
or under any circumstances) of regular compensation to an individual 
for his first week of otherwise compensable unemployment, (C) paid for 
any week with respect to which such benefits are not payable by reason 
of section 233(d) of the Trade Act of 1974 [19 U.S.C.A. 2293(d)], or 
(D) paid to an individual with respect to a week of unemployment to the 
extent that such amount exceeds the amount of such compensation which 
would be paid to such individual if such State had a benefit structure 
which provided that the amount of compensation otherwise payable to any 
individual for any week shall be rounded (if not a full dollar amount) 
to the nearest lower full dollar amount.
    ``(3) The amount which, but for this paragraph, would be payable 
under this subsection to any State in respect of any compensation paid 
to an individual whose base period wages include wages for services to 
which section 3306(c)(7) of the Internal Revenue Code of 1986 [26 
U.S.C.A. Sec. 3306(c)(7)] applies shall be reduced by an amount which 
bears the same ratio to the amount which, but for this paragraph, would 
be payable under this subsection to such State in respect of such 
compensation as the amount of the base period wages attributable to 
such services bears to the total amount of the base period wages.

                                 <F-dash>

    Chairman DAVIS. Your time has expired, Mr. Pauken. Thank 
you.
    Dr. Boushey.

 STATEMENT OF HEATHER BOUSHEY, PH.D., SENIOR ECONOMIST, CENTER 
               FOR AMERICAN PROGRESS ACTION FUND

    Ms. BOUSHEY. Thank you, Chairman Davis, Ranking Member 
Doggett and Members of the Subcommittee for inviting me here to 
testify today. My name is Heather Boushey, and I am a Senior 
Economist with the American Progress Action Fund.
    So until we fill the demand gap, we will continue to have 
high unemployment, which in turn will drag down economic 
growth. Today's high unemployment was caused by the 
mismanagement of the economy in the 2000s, a financial sector 
only in service of its own profits, rather than fostering 
productive investments, and a housing bubble.
    The policies that will create jobs now are those that will 
make investments that not only boost employment in the short 
term but will lay the foundations for long-term economic 
growth.
    On the one hand, our economy has grown for six straight 
quarters now. Much of this growth that we have seen has been 
due to the Recovery Act and other policies aimed at addressing 
the fallout from the financial crisis. Yet we continue to have 
a large gap between what our economy currently produces and 
what it would be producing if workers and the economy's 
productive assets were to be used at full employment.
    Even though corporate America is flush with cash and 
profits have soared, investment is at its lowest level in more 
than five decades. The National Federation of Independent 
Businesses continues to report month after month that its 
members see a lack of sales as their key concern. When 
businesses don't see sales, they don't hire.
    Thus, while this recession ended in June of 2009, for 
everyday Americans, this has not been a recovery. There 
continue to be nearly five workers seeking a job for every job 
opening available, compared to just over one worker for every 
job available in early 2000 before the financial crisis began.
    While some groups have been hit harder than others, today's 
unemployment is not a structural problem. In May of 2007, the 
unemployment rate was 4\1/2\ percent. Yet just over a year and 
a half later, the private sector was shedding over 700,000 jobs 
per month. For the unemployment problem that we are facing 
today to be structural, there must be some new set of 
technological advances that made 1 in 10 workers 
instantaneously obsolete.
    I agree with the previous speaker that there is a long-term 
problem, the decline in manufacturing, but there is no evidence 
that that is our problem, the enormous problem of unemployment 
is solely due to that.
    Further, job losses in this recession have been widespread 
and not only concentrated in the sectors hardest hit by the 
bursting of the housing bubble.
    Funds spent on benefits and services designed to help the 
unemployed find new work have mitigated, not exacerbated, the 
problem. Unemployment benefits have been good for the economy, 
and a growing body of empirical work shows they have not been 
hindering workers from finding new employment.
    To boost employment, Congress should focus on three 
specific policy goals:

           First, we continue to need to focus on boosting 
        aggregate demand through investments in infrastructure 
        and making sure that the unemployment insurance system 
        and other automatic stabilizers remain in working 
        order. The American Society of Civilian Engineers 
        estimates that we will need to spend at least $2.2 
        trillion over the next 5 years just to repair our 
        crumbling infrastructure. This doesn't even include 
        things like high-speed rail, mass transit, and 
        renewable energy investments to free ourselves from 
        foreign oil and address climate change. Infrastructure 
        has traditionally been a bipartisan issue and one that 
        hopefully this Congress can build a bridge across the 
        aisle to address.
           Second, if someone has a job, we should be helping 
        them keep it by helping States and localities limit 
        future layoffs and thinking about innovative ways to 
        help firms keep workers on their payrolls. Simply put, 
        right now, all across America, schools are laying off 
        teachers, public universities are trimming their 
        staffs, and community colleges are cutting back. These 
        cutbacks constitute not just lost jobs now, but they 
        will also eventually worsen educational outcomes for 
        tens of millions of students across the country, 
        consequences that will have long-term negative effects 
        on the economy.
           Third, we should be helping the unemployed beat the 
        odds and find a new job. The TANF emergency fund led to 
        partnerships with the business community to create 
        nearly a quarter of a million new jobs. It was 
        implemented in States with both Democratic and 
        Republican Governors with much success. Texas, for 
        example, created nearly 40,000 jobs with this program. 
        It has expired as of last September, and it should be 
        reinstated.

    We could also do more to promote successful vocational 
programs that integrate vocation and employment-oriented goals 
and academic educational programs. However, yesterday, the 
House Appropriations Committee announced that it wants to cut 
job training programs by 50 percent. This will certainly not 
help us.
    We continue to live in one of the richest nations on the 
planet. We continue to have the resources to solve the problems 
that we as a Nation choose to solve. And yet here we seem to 
have lost some of our can-do conviction that the economy can 
indeed improve and we can create good jobs for all who need 
them. I hope that this Congress will continue to use its power 
to invest in America and create jobs.
    [The prepared statement of Heather Boushey follows:]

    [GRAPHIC] [TIFF OMITTED] T5329A.001
    
    [GRAPHIC] [TIFF OMITTED] T5329A.002
    
    [GRAPHIC] [TIFF OMITTED] T5329A.003
    
    [GRAPHIC] [TIFF OMITTED] T5329A.004
    
    [GRAPHIC] [TIFF OMITTED] T5329A.005
    
    [GRAPHIC] [TIFF OMITTED] T5329A.006
    
    [GRAPHIC] [TIFF OMITTED] T5329A.007
    
    [GRAPHIC] [TIFF OMITTED] T5329A.008
    
    [GRAPHIC] [TIFF OMITTED] T5329A.009
    
    [GRAPHIC] [TIFF OMITTED] T5329A.010
    
    [GRAPHIC] [TIFF OMITTED] T5329A.011
    
    [GRAPHIC] [TIFF OMITTED] T5329A.012
    
    [GRAPHIC] [TIFF OMITTED] T5329A.013
    
    [GRAPHIC] [TIFF OMITTED] T5329A.014
    
    [GRAPHIC] [TIFF OMITTED] T5329A.015
    
    [GRAPHIC] [TIFF OMITTED] T5329A.016
    
    [GRAPHIC] [TIFF OMITTED] T5329A.017
    
    [GRAPHIC] [TIFF OMITTED] T5329A.018
    
    [GRAPHIC] [TIFF OMITTED] T5329A.019
    

                                 <F-dash>

    Chairman DAVIS. Thank you for your time with us, Dr. 
Boushey.
    Mr. Holmes.

   STATEMENT OF DOUGLAS J. HOLMES, PRESIDENT, UWC-STRATEGIC 
       SERVICES ON UNEMPLOYMENT AND WORKERS' COMPENSATION

    Mr. HOLMES. Thank you.
    Chairman Davis, Ranking Member Doggett, Members of the 
Subcommittee, I am Doug Holmes, President of UWC-Strategic 
Services on Unemployment and Workers' Compensation. We are a 
national organization representing business, particularly in 
research and policy related to unemployment and workers' 
compensation.
    Thanks to you, Mr. Chairman, for your leadership in 
scheduling this hearing so early in the session to enable a 
fresh analysis on the heels of recent unemployment data from 
the Department of Labor and the Bureau of Labor Statistics.
    As the economy turns a corner to recovery, new strategies 
are needed to address lingering high unemployment rates and 
continuing large numbers of long-term unemployed claimants. The 
new year calls for new solutions to match the problems at hand. 
The following observations will help frame the discussion.
    First, the unemployment rate remains too high. Job openings 
are lagging the recovery. The number of mass layoffs has 
fallen. The number of initial applications for State 
unemployment compensation is declining, and the 4-week moving 
average of 415,500 initial claims is getting close to the 
400,000 mark that is generally indicative of nonrecessionary 
periods. Total unemployment rates vary considerably State by 
State. We have 10 States that have unemployment rates of less 
than 7 percent, and we have 10 States with 10 percent or above.
    Employers who plan to hire new employees are still 
uncertain, however; and in addressing how to help Americans 
find jobs really three steps should be taken:

           First, encourage job creation by avoiding increases 
        in the cost of hiring and employment; second, encourage 
        unemployed workers to seek and accept work that is 
        available in the marketplace; and, third, improve the 
        efficiency of the system to match unemployed workers 
        with jobs that are available in the marketplace.

    This three-pronged approach removes barriers to job 
creation and encourages the more active and efficient matching 
of workers seeking work and employers filling employment needs.
    First prong, reduce the cost of hiring and employment. 
State unemployment insurance taxes as a percent of total wages 
increased on average from 2009 to 2010 by 34 percent, with 
larger increases expected for 2011 and 2012. Special State 
taxes paid by employers to repay Federal interest on loans are 
also increasing. Thirty-one States and jurisdictions have 
outstanding loans of $42.4 billion; and $1.3 billion in 
interest is due this year on September 30, with more than $1.6 
billion continuing to be due on an annual basis.
    FUTA taxes are increasing. Employers in Indiana, Michigan, 
and South Carolina have already been required to pay increased 
FUTA taxes for 2009 and/or 2010; and employers in 21 additional 
States will be subject to an increased FUTA tax for 2011. The 
increased tax is projected to cost employers approximately $2 
billion for 2011 and $4 billion for 2012. Congress should, in 
response to this first issue, provide a waiver of the interest 
on loans to States to pay unemployment compensation for 2011 
and 2012 and also waive the FUTA offset credit penalties for 
2011 and 2012.
    Second prong of the three-pronged strategy: encourage 
unemployed workers to seek and accept work. In a recent survey 
of State unemployment insurance agencies, 39 States reported 
broad exceptions to the general work search requirements, and 
one State reported that it had no work search requirement at 
all. The exceptions have in many cases consumed the rule. 
Individuals in many States may be able to apply online, submit 
claims for unemployment compensation online with electronic 
self-attestation of their work search activities, and have 
benefits directly deposited into their bank accounts. The 
entire application and weekly claims payment process may be 
completed with very little contact by the claimant with a one 
stop or employment services office.
    Work search requirements for Federal programs and standards 
for State work search requirements should be enacted to send 
the appropriate signal to claimants that active work search 
efforts are expected and required.
    The Federal extended benefit program should also be 
reformed to identify areas where emergency and extended 
benefits might be curtailed to save some important dollars in 
target money appropriately.
    Finally, the third prong is to implement initiatives and 
provide services that are most effective in assisting 
unemployed workers in returning to work. Such programs have 
been described. Utah and Texas are good examples of this.
    Thank you very much.
    [The prepared statement of Douglas J. Holmes follows:]

   Prepared Statement of Douglas J. Holmes President, UWC-Strategic 
            Services on Unemployment & Workers' Compensation

    Chairman Davis, Ranking Member Doggett, and Members of the 
Subcommittee on Human Resources, thank you for the opportunity to 
testify on the topic of improving efforts to help unemployed Americans 
find jobs.
    I am Douglas J. Holmes, President of UWC-Strategic Services on 
Unemployment & Workers' Compensation (UWC). UWC counts as members a 
broad range of large and small businesses, trade associations, service 
companies from the Unemployment Insurance (UI) industry, third party 
administrators, and unemployment tax professionals. The organization 
traces its roots back to 1933 at the time when unemployment insurance 
was first being considered for enactment.
    Thanks, Mr. Chairman, for your leadership in scheduling this 
hearing early in the Congressional session to enable a fresh analysis 
of the economy on the heels of recent unemployment and jobs information 
released last week by the U.S. Department of Labor and the Bureau of 
Labor Statistics. As the economy turns the corner to recovery, new 
strategies are needed to address lingering high unemployment rates and 
continuing large numbers of long term unemployed claimants. The new 
year calls for new solutions to match the problems at hand.
    The following observations and data may help frame the discussion.
    The Unemployment Rate remains too high. In a December 2010 Issues 
paper prepared by James M. Borbely, an economist in the Division of 
Labor Force Statistics, Office of Employment and Unemployment 
Statistics, U.S. Bureau of Labor Statistics (BLS), Mr. Borbely provides 
a revealing comparison of the impact of the 2007-2009 recession and the 
previous four recessions with respect to the proportion of the labor 
force that is unemployed.
    For the first 8 months of all five recessions, the unemployment 
rate followed a similar upward trend, increasing by about 1 percentage 
point. During the 2007-09 recession and the two long recessions of the 
1970s and 1980s, the unemployment rate increased by an additional 3 
percentage points or so during the next 8 months of the downturn. 
However, after 16 months, the similarity disappears as the unemployment 
rate in the 2007-09 recession continued to trend upward for several 
months. The 2007-09 recession ended in June of 2009, the trough of the 
high unemployment rate following the recession was 10.1 percent in 
October of 2009. It has now been 16 months since the trough of high 
unemployment yet the unemployment rate remains much higher than at this 
time during any other of the post recession periods since the 1970s.
    Job openings are lagging the recovery. The number of job openings 
reported by the Job Openings and Labor Turnover Survey Highlights 
published by BLS on January 11, 2011 shows that job openings declined 
to their lowest point one month after the end of the recession in July 
of 2009 and employment levels declined through December of 2009. Since 
that low point job openings and employment have trended up, but the 
number of hires only increased by 9 percent from June of 2009 to 
November of 2010. Hires totaled 4.2 million in November.
    The number of mass lay-offs has fallen. The number of mass layoffs 
reported by BLS for December 2010 decreased from the prior month and 
reached its lowest level since April 2008. The number of mass lay-offs 
fell from 2009 to 2010 for temporary help services, school and employee 
bus transportation, motion picture and video production, professional 
employer organizations, automobile manufacturing, and discount 
department stores.
    The number of initial applications for state unemployment 
compensation is declining. The number of initial state applications has 
dropped from 682,176 at the end of January of 2009 to 490,000 in 2010 
and now to 415,000.
    Despite the reduction in the number of initial applications, the 
number of ongoing federal and state unemployment compensation weekly 
claims remains much higher than at this point after any of the previous 
recessions. The series of federal measures taken to enact emergency 
unemployment compensation, additional compensation, relaxation of the 
triggers for extended benefits, and incentives to states to expand 
benefits enacted in the American Recovery and Reinvestment Act (ARRA) 
have resulted in a much larger number of unemployment claims being 
filed and unemployment compensation paid than any of the prior four 
recessionary periods. We now have 14 million unemployed individuals, 
and of those claiming unemployment compensation the average duration of 
claims is more than 34 weeks.
    Total unemployment rates vary considerably state by state. The 
industrial mix and volatility of the local economies in the states 
varies considerably. Ten states; Hawaii, Iowa, Kansas, Nebraska, New 
Hampshire, Oklahoma, South Dakota, Vermont, Virginia and Wyoming, have 
three month total average unemployment rates of less than 7.0%. Ten 
states; California, Florida, Georgia, Kentucky, Michigan, Nevada, 
Oregon, Rhode Island, and South Carolina have unemployment rates of 
10.0% or above.
    Employer plans to hire new employees are still uncertain. The 
results of the monthly January economic survey conducted by the 
National Foundation of Independent Business (NFIB) showed that 11 
percent of business owners reported increasing employment at their 
firms by an average of 2.8 workers while 15 percent reported reducing 
total employment an average of 2.9 workers per firm. Improved 
confidence on the part of small business owners is critical to new job 
creation.
    In addressing how to help Americans find jobs, three steps should 
be taken; (1) encourage job creation by avoiding increases in the cost 
of hiring and employment, (2) encourage unemployed workers to seek and 
accept work; and (3) improve the efficiency of the system to match 
unemployed workers with jobs available in the market place.
REDUCE THE COST OF HIRING AND EMPLOYMENT
    It is generally recognized by economists that increasing taxes 
during a period of nascent economic recovery is counterproductive. 
Congress as recently as December reduced the social security payroll 
tax to help spur the economy. Despite widespread recognition that now 
is not a good time, there are a number of automatic tax increase 
provisions in federal and state law that have begun to increase state 
and federal unemployment taxes paid by employers. These increases come 
at the very point in the economic cycle that such increases impair 
employers' ability to hire employees.
    State unemployment taxes are dramatically increasing. State UI 
taxes as a percent of total wages increased on average from 2009 to 
2010 by 34% with larger increases expected for 2011 and 2012 as states 
and employers in many hard hit states struggle to restore solvency to 
state unemployment trust funds that have been savaged by the recession 
and historically high unemployment claims loads.
    Special state taxes paid by employers to repay federal interest on 
loans are increasing. States with outstanding loans with the Federal 
Government through Title XII of the Social Security Act, effective 
January 1, 2011 are required to pay interest on the loans as a 
condition of receiving administrative funding for the UI program and as 
a condition of employers in the state receiving the normal state offset 
against the Federal Unemployment Tax (FUTA).
    The first statutorily required payment is due on or before 
September 30, 2011. As of February 3, 2011, thirty-one states and 
jurisdictions had outstanding loans of $42.4 billion. States and/or 
employers in the following states will be impacted with interest 
charges; Alabama, Arizona, Arkansas, California, Colorado, Connecticut, 
Delaware, Florida, Georgia, Hawaii, Idaho, Illinois, Indiana, Kansas, 
Kentucky, Massachusetts, Michigan, Minnesota, Missouri, Nevada, New 
Hampshire, New Jersey, New York, North Carolina, Ohio, Pennsylvania, 
Rhode Island, South Carolina, Vermont, Virgin Islands, Virginia, and 
Wisconsin.
    Interest due to be paid on these loans is estimated on an annual 
basis to exceed $1.6 billion with the amount to be paid by September 
30th of approximately $1.3 billion. Much of this cost will be paid by 
employers through increases in existing or new special state payroll 
taxes. The additional tax on payroll will add to the already 
dramatically increasing state unemployment taxes and discourage the 
creation of jobs in 2011 and 2012.
    FUTA taxes are increasing. Employers are required to pay automatic 
increases in the Federal Unemployment Tax in states with outstanding 
federal loans. Employers in Indiana, Michigan and South Carolina have 
already been required to pay increased FUTA taxes for 2009 and/or 2010, 
and employers in twenty-one additional states, including Alabama, 
Arkansas, California, Connecticut, Florida, Georgia, Idaho, Illinois, 
Kentucky, Minnesota, Missouri, North Carolina, New Jersey, Nevada, New 
York, Ohio, Pennsylvania, Rhode Island, Virginia, Virgin Islands, and 
Wisconsin will be subject to an increased FUTA tax for 2011. The 
increased tax is projected to cost employers approximately $2-3 billion 
annually for 2011 and 2012.
    It is no wonder that employers are hesitant to take on the 
additional cost of hiring additional employees given the increases in 
unemployment insurance related payroll taxes and uncertainties as to 
the cost of doing business. A coordinated effort on the part of the 
states and the Federal Government is essential in response to the 
skyrocketing taxes.
Provide short term relief from Federal Unemployment Tax Penalties
    Congress should (1) provide a waiver of the interest on loans to 
states to pay unemployment compensation for 2011 and 2012, and (2) 
waive FUTA offset credit penalties for 2011 and 2012.
    These steps will reduce the cost of hiring that would otherwise 
automatically increase without action by Congress.

ENCOURAGE UNEMPLOYED WORKERS TO SEEK AND ACCEPT WORK
    The number of unemployed workers being hired is not large enough to 
significantly reduce the total unemployment rate or the number of long 
term unemployed workers. This suggests a solution that stresses not 
only the creation of new jobs but unemployed workers must be more 
actively engaged in searching for and accepting work that is available 
in the labor market and/or choose the training needed to obtain the 
skills and abilities that are in demand in the new economy.
    Some of the federal funds projected to be spent on additional weeks 
of emergency or extended unemployment compensation at this point in the 
recovery may actually produce a disincentive for active job search. The 
addition of 13 weeks of federal extended benefits is generally 
recognized by the Congressional Budget Office (CBO) as having the 
effect of increasing the duration of state unemployment compensation on 
average by more than two weeks.
    There are record numbers of long term unemployed, many of whom are 
being paid emergency unemployment compensation and extended benefits. 
The U.S. DOL report for the week of January 15, 2011, shows 3,653,080 
individuals were paid EUC and 898,381 were paid regular extended 
benefits.
    In a recent survey of state unemployment insurance agencies 
conducted for UWC by the National Foundation for Unemployment 
Compensation and Workers' Compensation, 39 states reported exceptions 
to the general work search requirements and one state reported that it 
had no work search requirement as a condition of eligibility for 
unemployment compensation.
    Exceptions to work search requirements ranged from a general 
exception when the state unemployment rate exceeded 8.5% to situations 
where individuals are attached to prior employment and expect to return 
to work, seek work through hiring halls or temporary services, are in 
approved training, or are between terms of employment for a seasonal 
employer.
    The advent of claims systems designed to enable easier claims 
processing and faster payment, unfortunately, has resulted in a lower 
degree of verification of individuals actively seeking work as a 
condition of weekly payment. Although millions of individuals are 
filing tens of millions of weekly claims, there are very few 
individuals who anticipate that their claims will be denied for failure 
to seek work. Individuals in many states may be able to apply on line, 
submit claims for unemployment compensation on line with electronic 
self-attestation of their work search activities, and have benefits 
directly deposited into their bank accounts. The entire application and 
weekly claims and payment process may be completed with very little 
contact by the claimant with a one-stop or employment services office.

Increase Job Search Requirements and Reform Federal Extended Benefit 
        and Emergency Programs
    Work search requirements for federal programs and standards for 
state work search requirements should be enacted to send the 
appropriate signal to claimants that active work search efforts are 
expected and required as a condition of receiving unemployment 
compensation. Work search efforts should be recorded and verifiable.
    The federal extended benefit program should be reformed. The 
circumstances under which federal extended benefits are triggered 
``on'' and ``off,'' the circumstances under which a federal 
``emergency'' program might be needed, and the conditions of receiving 
extended weeks of unemployment compensation should be reformed to more 
effectively target funding and respond to the needs of individuals in 
finding jobs.

Improve the Integrity of the UI Program
    Creating a culture of personal responsibility and accountability is 
extremely important in assuring that funds available for unemployment 
compensation are properly paid and individuals for whom the program is 
dedicated properly receive benefits. According to CBO total state and 
local unemployment compensation payments jumped to $120 billion in 
2009, $159 billion in 2010 and payments are estimated to be $129 
billion for 2011. With overpayment rates currently of approximately 
10%, the amounts available for collection have increased to $12-16 
billion per year.
    In 2010, Congress recognized the need to provide new tools to 
identify and collect the growing amount of overpayments by enacting the 
Claims Resolution Act of 2010 (HR 4783). The new law provides new 
reporting requirements to capture the new hire date of individuals as 
part of the National New Hire system. This data will enable states to 
better identify specific weeks for which individuals are being paid 
wages while claiming unemployment compensation, reduce fraud and 
increase recovery. The new law also included provisions to enable the 
offsetting of income tax refunds with outstanding unemployment 
compensation overpayments.
    These new tools are projected to save $2.4 billion over ten years, 
but the improved savings will only be realized if administrative 
funding is provided to properly implement these new tools and other 
integrity measures. Additional administrative funds for integrity 
functions are needed not only to be able to combat fraud and to recover 
overpayments but also as a tool to send a signal to claimants of the 
need for personal accountability in claiming unemployment compensation 
and actively seeking work as a condition of being paid unemployment 
compensation.

IMPLEMENT INTIATIVES AND PROVIDE SERVICES THAT ARE MOST EFFECTIVE IN 
        ASSISTING UNEMPLOYED WORKERS IN RETURNING TO WORK
    It has been well established that effective job search reduces the 
number of weeks that individuals remain on unemployment compensation 
and serves to more quickly fill the staffing needs of employers. The 
use of web based job search systems and public/private partnerships has 
demonstrated that greater efficiency and effectiveness in job search 
can be a win/win by reducing the duration of unemployment compensation, 
and returning unemployed workers to the workforce more quickly.
    The population of long term unemployed workers is not monolithic. 
Long term unemployed claimants are broadly representative of the 
workforce and different strategies are needed for the variety of 
individuals and their barriers to employment.
    The Reemployment & Eligibility Assessment Program (REA) is 
currently provided with a small amount of federal funding to promote 
rapid reemployment of UI claimants, reduce overpayments and cost-
savings for the UI trust fund. The REA combines in-person interviews 
with assessment of individual claimant skills and abilities, labor 
market information and the development of a work-search plan. The REA 
program has been demonstrated in many states to reduce the duration of 
unemployment for individuals participating in the program and should be 
expanded as a priority to additional claimants.

Implement Effective Reemployment Initiatives
    An analysis of the makeup of the 4.4 million long term unemployed 
claimants and those who are likely to exhaust unemployment compensation 
who are currently claiming state unemployment compensation is needed at 
the state and one-stop local area level to determine the most effective 
ways to assist them in returning to work.
    Once there is a determination of the size of the population to be 
served and an evaluation of resources needed, assessments of workers 
should form the basis on which to determine whether the individuals are 
in need of additional job search, training, and/or support services.
    The publicly funded workforce system in place today is limited in 
its capacity, and an effective plan must combine public as well as 
privately funded services, and an emphasis on active work search, 
reemployment services, targeted training and incentives to create jobs.
    The leveraging of public funding across program areas as well as 
private funding driven by employers who are making hiring decisions can 
be extremely effective in developing the training and support needed to 
return unemployed workers to work.
    UWC supports the continued use of reemployment rate measures by the 
U.S. Department of Labor as part of the evaluation of the UI system. 
The goal of employment security should be employment, and performance 
measures should reflect this priority.
Promote Targeted Employment Based Training
    The assessment and referral to training and placement of unemployed 
workers can be effective in enabling workers to find new work. Employer 
based programs, such as customized training, on the job training, and 
programs such as Georgia Works that permit individuals to work as 
employees or trainees in anticipation of long-term employment are the 
most effective in moving unemployed workers into training which is 
likely to lead to employment.
    Active participation by employers is the key to successful training 
as employers ultimately make the hiring decisions. Targeted initiatives 
in the areas of health services, manufacturing, and other growth areas 
make sense in the current economy as a way to meet employer needs and 
to reduce unemployment.
    Individuals qualifying for unemployment compensation benefits 
typically have work experience and training from prior work that 
enables them to find similar work. However, particularly during a long 
term recession such as we have experienced, a larger number of 
individuals become structurally unemployed and may find themselves with 
skills that are no longer in demand in the labor market.
    These individuals may require services well beyond the temporary 
partial wage replacement provided by the UI program and job search 
services, and are best served in partnership with private and public 
programs. Trade Adjustment Assistance and the Workforce Investment Act 
provide a broader array of support services, assessment, testing, 
skills training, and referral services.

Keep the Role of the UI program Focused on Returning Unemployed 
        Claimants to Work.
    A long list of social safety net programs and services has been 
established since unemployment insurance was enacted in 1935. The list 
includes TANF, TAA, WIA, SNAP, Medicaid, Medicare, heating assistance, 
subsidized housing, subsidized child care, subsidized health care, and 
earned income tax credits. Many of these programs include a cash 
assistance component.
    Unemployment Insurance is the primary social safety net program 
targeted in providing economic security for individuals who rely 
principally on their employment and wages for support. The role of the 
program is to provide short term support for individuals as they search 
for work after becoming unemployed through no fault of their own. The 
program is not designed or funded to provide support payments over 
extended periods of time. The goal of the system must be the efficient 
and effective return of claimants to work.
    In developing plans to assist long term unemployed workers in 
returning to work, the UI program should be used in conjunction with 
workforce programs dedicated to provide job search, reemployment and 
training services that may be funded from other sources but are aligned 
to provide economic security and effective workforce services to the 
benefit of the individual, employers, and economic development.

CONCLUSION
    Assisting more than 4.4 million unemployed claimants in finding 
employment is a tremendous challenge that calls for the effective use 
of federal and state resources across a range of social service 
programs as well as the active participation of employers and 
individual unemployed workers. In developing strategies to assist 
unemployed workers there must first be job creation to provide 
employment opportunities.
    Now is not the time to increase payroll taxes and Congress should 
act to provide relief from Title XII interest and FUTA tax penalties in 
2011 and 2012 to encourage job creation in the private sector.
    Federal extended benefit and emergency programs should be reformed 
to better target benefits while increasing the emphasis on work search 
and reemployment services.
    States should be properly funded to work with unemployed workers 
and employers to improve initiatives and services designed to return 
unemployed claimants to work. The REA program, job search services, 
assessment and referral techniques, and improved integrity should 
receive priority funding with the expectation that there will be a 
quantifiable reduction in the duration of unemployment compensation and 
an increase in the number of unemployed claimants referred and hired.
    Training initiatives should be closely coordinated with employers 
in developing customized training, OJTs, apprenticeships and other 
employer based training that leads to employment.
    Training and services provided for unemployed claimants should also 
be coordinated with providers in the private sector and with other 
workforce programs aligned to put claimants back to work.

                                 <F-dash>

    Chairman DAVIS. Your time has expired. Thank you.
    We will turn to questions now. I will begin the questioning 
with Mr. Holmes.
    I know that you reviewed the administration's unemployment 
tax increase proposal regarding the moratorium and the pickup 
in 2014, and I have seen your testimony that supports short-
term relief of State and Federal tax hikes associated with 
Federal UI loans to the States. If relief is provided to States 
now, should it be paid, in your opinion, paid for by raising 
taxes higher in future years or by cutting spending?
    Mr. HOLMES. Thank you, Mr. Chairman.
    I really think that the time to examine spending levels in 
extended benefits and EUC has come in light of the change in 
the circumstances in the economy. I think we should note that 
the Federal unemployment tax that funds the EUC account which 
funds extended benefits is in deficit and is borrowing right 
now. So for each additional dollar that is paid in extended 
benefits or EUC, we add another dollar to the Federal deficit. 
I think we should look at the spending side first before we 
move to looking at any tax.
    Chairman DAVIS. Where would you look in terms of any 
spending?
    Mr. HOLMES. I think as we look at the data State by State 
and look to what are the labor markets in States that are 
growing, where there are opportunities for work, those are 
States where you could curtail some of the additional weeks of 
extended benefits and maybe move some of that money over to 
other activities that would push people into work or encourage 
them to work. But I think those would be the places to look.
    Chairman DAVIS. Following on that point, under today's 
rules, people in States with an unemployment rate of 6\1/2\ 
percent are guaranteed 86 weeks of benefits. Meanwhile, people 
in States like Nevada, with unemployment rates twice that 
level, qualify for only 13 more weeks of benefits, a total of 
99 weeks. From a cost standpoint, only 19 percent of emergency 
extended benefit payments are targeted to the high unemployment 
States, with the remaining 81 percent provided without regard 
to the State unemployment rate. Do you feel it makes sense to 
pay benefits this way or should they be better targeted to 
where unemployment is the highest?
    Mr. HOLMES. I very much agree we should be targeting to 
where the unemployment is higher, because that is where the 
need presents itself more acutely. I would say a targeting 
approach makes better sense.
    Chairman DAVIS. What do you think would be gained by that 
from a standpoint of taxes and job creation?
    Mr. HOLMES. When you look at the entire package of 
initiatives, first of all, it enables the relief from tax that 
I talked about, which enables businesses to make the decision 
to hire more people, which reduces unemployment compensation. 
And, also, it targets more effectively--whether it is work 
search or training, you can target dollars more effectively to 
move people into jobs that are available in the economy.
    Chairman DAVIS. Thank you very much, Mr. Holmes.
    I am trying to lead from the front with the example of 
brevity equals elegance due to the challenges that we have had.
    Mr. DOGGETT.
    Mr. DOGGETT. Thank you. I will follow your excellent 
leadership in that regard.
    Mr. Holmes, do you feel that cutting job training funds 
will be helpful to the efforts of getting the unemployed back 
to work?
    Mr. HOLMES. I think that the question of training again is 
a matter of targeting the training to employment. So the 
question really should be how are we----
    Mr. DOGGETT. Do you think we can cut the overall level of 
job training funds and still come out ahead with regard to 
unemployment?
    Mr. HOLMES. Again, I think it is how you target the funds 
that are available.
    Mr. DOGGETT. Ms. Cox, how do you feel about cutting job 
training funds?
    Ms. COX. Well, two things on that piece. First, when you 
talk job training funds, when you talk cutting, I would say 
first it is flexibility right now. States have to deal with 
formulas set up by the Feds of where we can allocate those 
resources between youth, dislocated workers, and adults.
    So I have already very little funds in that area, almost 7 
million, and almost half of that is for youth. I have got kids, 
would love my kids to work. But when we are talking about 
dislocated workers, my first preference would be that we have 
that ability to switch funds between youth, dislocated workers, 
and adults.
    Mr. DOGGETT. So you don't want to see your total amount of 
funds cut, you want flexibility in how they are used?
    Ms. COX. I would say we are already struggling with 
training dollars. But I always think there are efficiencies. 
Right now, when I look at the bureaucracy in terms of system 
design, I do think there is some waste. I don't think we would 
want to cut training dollars, but I think we would want to look 
at system design and cut where the waste is and try to leave 
the resources for training there as much as you can. But I 
would certainly not be opposed to reducing bureaucracy.
    Mr. DOGGETT. If you can identify any specific areas of 
waste after your testimony to supplement that, I think we would 
all like to have it.
    Ms. COX. Sure. We have some ideas.
    Mr. DOGGETT. We all want to ferret out waste.
    [The information follows:]
     Mrs. Kristen Cox, Executive Director, Utah Workforce Services
    While the Workforce Investment Act provides critical services for 
America's workforce, its effectiveness can be hampered by overly 
restrictive requirements or outdated business processes. It is 
designed--like most mandates--through a focus on policy and oversight 
rather than on effective system design.
    Integrating policy with efficient business process design and a 
focus on outcomes would eliminate waste and provide more value to the 
customer while maintaining funds for job training and related 
activities. What follows are a few recommendations to eliminate waste 
and improve the system. These, and other similar recommendations Utah 
is considering internally, take into account wasteful activities such 
as unnecessary hand-offs and time spent on approvals, reworks, and 
duplication--just to name a few.

National Emergency Grants
    Allow states to retain more resources to respond to emergency lay-
offs as compared to the current National Emergency Grant process. 
Today, it can take months for a state's NEG request to be approved--
preventing states from responding to layoffs when the need is greatest.

Data Validation
    The level of effort required to provide data validation is not 
worth the limited benefit. Data validation of 800 cases does provide 
limited case trend information, but a smaller case sample--100, for 
example, would provide basically the same information. Over a two month 
period, a total of six to eight staff are dedicated to a process that 
produces limited results or outcomes. For data validation to have this 
kind of impact for a small state like Utah implies that the national 
implications are significant. The effort required from DOL for data 
validation far exceeds the dozens of other programs administered by the 
Department of Workforce Services.

Flexibility between Funding Streams
    Current funding formulas require states to spend an allocated 
dollar amount within a specific training category, i.e., youth, 
dislocated worker, and adult. If there is a greater need in one 
category than another, we are unable to transfer funds between the 
youth category and the adult/dislocated worker categories. There have 
been instances when funds have gone unspent in one category and could 
have been used in another. States should be given the flexibility to 
use funds based on local economic need.

Verification of Social Security Numbers and Information
    DOL has not taken the lead in coordinating the electronic 
verification of social security information. Manually providing the 
data incurs a great deal of waste in time and effort. States currently 
obtain social security information in an electronic format for other 
programs such as TANF and SNAP, but DOL training programs are behind 
the times in allowing the electronic verification of social security 
information.

Consolidation of the Trade Adjustment Act with WIA Training Programs
    Training programs authorized under TAA ultimately benefit the same 
individuals served under WIA. Case in point: regardless of whether a 
worker lost his/her job because of work going out of the country or 
because of downsizing, the result is the same--a lost job. Allowing a 
state to integrate the funding and reduce duplicative administrative 
functions would improve efficiency and create equity among customer 
groups currently being served under different programs.
    Many other areas could be improved such as the grant process, 
reporting, and state plan requirements. With the right focus and design 
thinking, WIA could become a much leaner and efficient program and 
significantly impact America's competitiveness.

    Mr. DOGGETT. Dr. Boushey, I think there is some merit to 
the approach that Commissioner Pauken has described in the 
Texas Back to Work Program, but I have some concerns going 
forward about financing it by taking money from extended 
unemployment benefits. I wonder if you might respond with your 
opinion on that.
    Ms. BOUSHEY. I think there are a couple of issues.
    First off, the money that goes out for the unemployment 
insurance system is supposed to help folks who are unemployed 
while they job search. And so certainly we both want them to be 
job searching, but we need to make sure that the solvency and 
that those funds are still being used for the unemployment 
insurance system. We have already heard up here today that 
there are a number of problems with the system. Most of the 
States are solvent. It doesn't seem to make a lot of sense to 
take moneys from a system that already is having trouble to put 
it towards something else.
    I think that is connected to the conversation that the 
House is also having about whether or not you want to cut those 
job training programs. It doesn't make sense to cut those 
training programs in half. You are sort of robbing Peter to pay 
Paul, if you will.
    But I also think that there are a couple of things. While 
training programs are certainly important and we need to get 
folks into them, we need to make sure that we are training 
people for both jobs that exist and that we are recognizing the 
demand problem in front of us.
    One of the things about the labor market right now is it is 
not the case that every worker that is unemployed needs to get 
their high school diploma or needs vocational training. When 
you look at the long-term unemployed, for example, unemployed 
managers make up 1 in 10 of the unemployed. Forty-six percent 
have been searching for a new job for at least 6 months. But 
among construction workers, only 1 in 14 of the total 
unemployed, only 36 percent have been searching for a job for 
at least 6 months. So it is not the case. Those folks who are 
disproportionately long-term unemployed are in fact in 
managerial occupations and other occupations where a GED or 
vocational training may not be appropriate.
    I think your point that you made at the very beginning, the 
problem isn't the unemployed, it is unemployment. We need to 
focus on demand as a key part of this issue.
    Mr. DOGGETT. I know we won't confront each other about 
these points, but specifically on the issue of the half a 
billion dollars of unemployment funds Texas did not take, 
didn't your office as well as the legislative budget board 
determine that for almost the next decade there would be no 
additional burden on the State of Texas by taking those funds.
    Mr. PAUKEN. Congressman Doggett, we were prepared to--in 
fact I came up to Washington last year, met with some members 
of the Texas delegation to devise a program whereby we would 
get the $550 million, do what the Congress mandated. But at the 
time when the Federal money had run out, been fully exhausted, 
then we would be permitted to have a sunset provision. It is a 
simple two paragraph amendment; and, unfortunately, it got 
rejected.
    And so the reality is that--I just think this is a matter, 
a philosophical matter. I think it is a move to federalize 
State unemployment laws; and the idea that a State is under a 
Federal law, even after the Federal funds have run out, I think 
is an overreach on the part of the Federal Government.
    Mr. DOGGETT. We will just agree to disagree.
    Chairman DAVIS. The gentleman's time has expired.
    The gentleman from Minnesota, Mr. Paulsen.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Mr. Chairman, as you noted in your opening statement--I was 
trying to ask a question of Ms. Cox and Mr. Pauken----
    You noted in your opening statement there seems to have 
been a breakdown in recent years with our employment security 
systems becoming less successful at helping unemployed people 
find and take jobs. And in Minnesota, as a way to match 
employers with the unemployed, we have Minnesotaworks.net where 
we have over 71,000 resumes that are posted for nearly 32,000 
jobs. It seems like a good start, but there is certainly more 
we can do to bridge the gap or repair the system, I would 
think. And see if you agree with that.
    But, for example, should we hold States more financially 
accountable for helping unemployed workers find jobs? Do we 
have systems in place that do that today and do they work?
    Ms. COX. Well, from my perspective--DOL recently I think 
has acknowledged that the reemployment of UI claimants is 
important, but there is not a real meaningful measure in place 
that drives States to reemploy individuals. As I said earlier, 
it is more by State design than it is by Federal design. UI 
can't do it alone.
    So in your example with the job matching program, we have 
used Workforce Investment Act dollars, Wagner-Peyser dollars to 
build better technology to help match unemployed workers with 
jobs that actually exist in Utah. But that is because we have 
been able to pull funds across because they are all under my 
department and we have a singular philosophy. That is not 
always the case.
    At the end of the day, it is much easier to define process 
and point to what people would do. I think the harder 
discussion is to say, what is the outcome and how do we measure 
it? And I think that measurement is something that you would 
have to look at across systems. Either you collapse the funding 
or you have a common measure across Wagner-Peyser, WIA, and UI 
so they are all responsible and play a role in the re-
employment of UI claimants.
    Because it really is at this point some States do it and 
some States don't based on the philosophical direction of the 
State. In my perspective, re-employing UI claimants is 
critical. I talked earlier with a colleague today the program 
shouldn't be the unemployment insurance program. It should be 
the insurance employment program. That should be our focus 
across all workforce development agencies.
    Mr. PAULSEN. Mr. Pauken, would you agree?
    Mr. PAUKEN. I would agree with her sentiments; and, in 
Texas, we do have a measurement for accountability, a 10-week 
measurement.
    Mr. PAULSEN. Let me just follow up with you, too, because I 
think you described in your testimony the Texas Back to Work 
program in which Texas provides employer subsidies.
    Mr. PAUKEN. I call it an incentive.
    Mr. PAULSEN. Minnesota actually had a very similar wage 
program in the 1980s. And you mentioned this program saves 
taxpayers' money, counting all of the benefits paid and taxes 
not collected while someone is unemployed compared to when they 
have a job. So could Texas use even $1 of the Federal extended 
benefit funds for Texas Back to Work subsidies or incentives to 
get someone hired who might otherwise continue to collect 
Federal subsidies?
    Mr. PAUKEN. We can't now, but I would like to see us have 
the discretion to be able to do that. It is a win-win situation 
because we have seen that we are hiring not only people who are 
on the Texas benefits but then they go on to the Federal 
benefits and even people who exhaust their Federal benefits. 
And we have seen--it is $2,000 over 4 months, and it is for 
employees of modest means, people making $15 or less, and that 
is a pool of 250,000 in Texas, and we are at 11. We will easily 
be at 25 if we get additional State funding. And if we had more 
discretion--and that is what we are really seeking.
    I have been out of government since the Reagan 
administration days, and so much seems to be mandated from the 
Federal Government. Let the flowers bloom at the State and 
local level. This is working, and it is helping the people who 
are unemployed and helping the employers who want to provide, 
get people back to work and get some on-the-job training.
    Mr. PAULSEN. So you would say it is a smart use of Federal 
taxpayer dollars to insist that they are spent on unemployment 
benefits instead of helping someone take a job if possible? 
More flexibility?
    Mr. PAUKEN. Absolutely. That is what we are asking for. It 
is more flexibility. And I think States can choose to go that 
direction if they choose to.
    But the idea of everything being in these little boxes and 
you are limited as to what you can do I think is the wrong way 
to go. I think we need to devolve power to the States and local 
communities in this area as well as in other areas.
    Chairman DAVIS. Thank you very much.
    Mr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Earlier this week, the Republicans had on the calendar a 
bill to extend TAA for another 4 months or so, Trade Assistance 
Adjustment. They pulled the bill. Does it make any difference 
to any of you?
    Mr. PAUKEN. Can I comment on that?
    The real answer, Congressman, is the opening comments some 
people made, the comments about the excesses of the Wall Street 
crowd. But if you have got a tax system that rewards, if you 
will, debt because debt is deductible, while punitively taxing 
savings capital investment employment, what you are doing is 
you are shipping jobs overseas. And the best way to deal with 
that issue is not sort of picking winners and losers in the 
little marginal fix here and there but change the way we tax 
business to level the playing field with our trading 
competitors.
    And I am glad to see Senator Fritz Hollings has come out 
for this, Congressman Paul Ryan has, Senator DeMint, Pat 
Choate, who was in our State who ran with Ross Perot as his 
vice presidential running mate as an independent. So I think 
there is a broad cross section. I think that is the way to 
address this issue, rather than the idea of always trying to 
come up with something where the government is going to do this 
or that.
    Mr. MCDERMOTT. Your solution for the unemployed is hold 
your breath until we pass a VAT in the United States Congress?
    Mr. PAUKEN. Not at all. My solution is the only way we are 
going to grow out of this, as the Kennedy administration saw 
and as the Reagan administration saw, is to grow the private 
sector. And since the Obama stimulus----
    Let me make one comment. Since the stimulus program began 
in February of 2009, while we have added approximately 400,00 
public-sector government jobs, we have lost another 2.7 million 
jobs from February, 2009, through May of 2010.
    What is being done isn't working. We really need to have a 
bold approach to change the way we tax business, and I mean 
this is beginning to emerge across the board. I mean, Leo 
Henry, who was an economic adviser to John Edwards, has been 
talking about this. Michael Lynn. This is an approach we need 
to take.
    Mr. MCDERMOTT. Reclaiming my time. You have given enough of 
your pitch.
    Ms. BOUSHEY. Can I respond to your question?
    Both on two things. You know, one, on the trade adjustment 
assistance dollars, I mean, that is certainly an important 
source of funding for those workers who have been displaced by 
trade; and we certainly, especially in these high unemployment 
times, need to get those moneys out to them.
    There is actually some very new interesting economic 
research that is doing a really nice job of documenting the 
impacts on both employment and wages from trade and looking at 
especially communities that have high imports from China and 
how this is affecting them. I think there is even more and more 
evidence this is important, we need to be doing more things to 
both address the kinds of things that you are talking about to 
make sure that we are not exporting jobs overseas but also to 
deal with the aftershocks of it for the policies that we have 
already implemented.
    But then I do need to take sort of a point of information. 
We have seen growth in the private sector in terms of job gains 
over the past year. So it is not the case that since the 
Recovery Act we have seen the--we saw that the nadir of job 
losses were the month that Obama took office and then we saw 
job losses get smaller and smaller and they have been growing 
and the private sector have been adding jobs. And we know the 
economic growth that we have seen is in no small part 
attributable to what this Congress did, the dramatic actions 
that they took 2 years ago to help provide the economy.
    Ms. COX. But one thing on the TAA that--I am not going to 
get in this high-policy discussion. Mine is just on-the-ground 
practical. The folks who get the TAA benefits tend to get a 
richer package than folks that are dislocated through WIA 
provisions. And this is again going to collapsing the 
bureaucracy and just creating more flexibility so that we can 
serve folks who need help.
    And my preference would be--I guess the question I pose is, 
why do we have a separate TAA benefit package for one set of 
workers as compared to workers where they still lose their 
jobs, they weren't outsourced, but they get kind of a lower 
benefit package?
    So that is just a policy question I think that is worth 
consideration of why we offer kind of two strategies at the end 
of the day for people who don't have a job. How do you blend 
those I think is an important question just in terms of trying 
to operationalize this and administer this on the ground. It 
becomes challenging.
    Mr. MCDERMOTT. I think there ought to be a training benefit 
for everybody.
    Mr. Holmes.
    Mr. HOLMES. The only comments I would add is the kinds of 
services that are provided in TAA that may not be as readily 
available in the WIA system are the kinds of training that 
might be needed for longer-term unemployed. So I think I would 
share Ms. Cox's view and we should take a look at how to 
address those issues and not just with those that are impacted 
by trade but also more generally with the population that is 
long-term unemployed.
    Mr. MCDERMOTT. Thank you.
    Chairman DAVIS. The gentleman's time has expired.
    The gentleman from North Dakota, Mr. Berg.
    Mr. BERG. Thank you.
    A couple of questions. First, kind of a quick comment.
    Dr. Boushey, I don't think I would be here today if we 
increased jobs since the stimulus passed. Clearly, one of the 
hopes was that it would be a job creating by putting this money 
in and that we would never exceed 8 percent unemployment. 
Clearly, it has been a different path; and, of course, no one 
could predict the future at that time. So I am not here to say 
anything other than the fact that there is a couple of million 
more jobs out there, people looking for work.
    I want to thank Ms. Cox for your presentation. I was very 
impressed with it. Utah has expanded an economy over 3\1/2\ 
percent over the last 5 years. Very impressive. Second only to 
North Dakota. I like that. I had to repeat that.
    You know, it seems to me coming from the State that--and I 
have heard this--how do we get States to get more waivers? And 
it seems like that, you know, we did a welfare reform years 
ago, and States applied for waivers. They received waivers. It 
was like the Federal Government or the Congress said we want to 
hear your ideas. If I understand, we are all revenue neutral. 
So we weren't saying we are going to pay you more money, just 
we want to hear your creative ideas.
    I guess what I am asking is, should we provide the States 
more flexibility with waivers, or is there a way we could 
streamline that process to bring those good ideas more quickly 
to action at the State level?
    Ms. COX. Yes and yes. And I say that because, one, waivers 
is the way to really encourage laboratories of innovation at 
the State level. It is true how TANF came about because of that 
type of innovation.
    I struggle with the waiver process because it can become 
unto itself a cottage industry in the way business is done and 
you don't end up getting the staff you change but just plain--
this ongoing role of having to change regulations to get simple 
things done.
    So I would say if we could get DOL waiver authority so that 
we could put ideas forward, it would be great, with the 
expectation that there is very clear turnaround times--and this 
isn't DOL. This has been some of our experience with other 
Federal bureaucracies. There is a clear turnaround time of when 
those waivers have to be approved. There is clear criteria so 
we are not playing the back-and-forth game for 7 months and it 
is a simplified streamline process. I think it is plausible and 
very doable, but those expectations I think have to be built 
into any waiver initiatives.
    Mr. BERG. So maybe setting three or four guiding principles 
that these are the waivers, these are areas we are hoping to 
accomplish. Let States come up with them. And what kind of a 
turnaround time?
    Ms. COX. I like about 2 days. But knowing that is not very 
realistic, 8 months.
    Mr. BERG. Would that count the weekend or not?
    Ms. COX. We will give them the weekend off.
    But I think I may have some extreme views. We have sat on 
some waivers--and I will be bold. We have got some really good 
folks at the Department of Labor, but some of our NEG grant 
applications have taken--this is national emergency grants, 
``emergency'' being the operative term--4 to 6 months to get 
approved and turned around. They are busy. This isn't a 
pointing finger game. But that doesn't work when you are on the 
ground and you need people, you have got people at your 
doorstep who need help.
    So I think it is a collaborative effort with the DOL with 
what the resources are. But I would like to see a 30-day 
turnaround time. That sounds extreme, but you have got to be 
bold or bureaucracy can creep.
    Mr. BERG. Thank you. I yield back.
    Chairman DAVIS. I would like to recognize my friend from 
Georgia, Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman. Thank you for 
holding this hearing.
    Mr. Holmes, several media outlets, including CNN's 
money.com, have reported the long-term unemployed workers are 
now faced with hiring discrimination from some employers who 
have placed a restriction on their job posting that says, 
``unemployed candidates will not be considered or perspective 
candidates must be currently employed.''
    What would you say to an unemployed worker who is facing 
this kind of discrimination? Something is not fair there. 
Something is not right there. If you are unemployed, it is sort 
of saying don't apply. But if you are employed, it is okay for 
you to apply. What would you say to an unemployed worker?
    Mr. HOLMES. Well, I haven't seen those reports. I would say 
that is inappropriate for any employer to post that, and I 
think for the unemployed person, I think that they should be 
searching for work and looking for work and that is how you get 
from unemployed into employment.
    I think it is more a question of an inappropriate notice if 
in fact that is what has been put up on the part of the 
employer.
    Mr. LEWIS. It is my understanding that CNN has been running 
this for some time, and I would like to believe--CNN is based 
in my district, and I would like to believe they are pretty 
reliable.
    Anyone else want to respond?
    Mr. PAUKEN. Yes. The Texas Back to Work program 
discriminates in favor of people who are unemployed. In order 
to be able to participate in the program, you have to have lost 
your job through no fault of your own beyond unemployment 
compensation in Texas or extended benefits or even if extended 
benefits have been exhausted.
    So that is an initiative which has got support from 
business and labor organizations in our State. And I think we 
would just like to be able to have the kind of discretion and 
flexibility that has been discussed in order to use some of the 
Federal funds supposedly to encourage job creation to expand 
that program.
    Mr. LEWIS. Well, I have an article here that appeared in 
Money from last year. And looking for work, unemployed, need 
not apply.
    Mr. Chairman, I would like to submit it for the record.
    Chairman DAVIS. Without objection.
    [The information follows:]

                        The Honorable John Lewis

LOOKING FOR WORK? UNEMPLOYED NEED NOT APPLY
CNNMoney.com
By Chris Isidore, Senior Writer
June 16, 2010: 4:25 AM ET
http://money.cnn.com/2010/06/16/news/economy/unemployed_need_not_apply/

    NEW YORK (CNNMoney.com)--The last thing someone who is unemployed 
needs to be told is that they shouldn't even apply for the limited 
number of job openings that are available. But some companies and 
recruiters are doing just that.
    Employment experts say they believe companies are increasingly 
interested only in applicants who already have a job.
    ``I think it is more prevalent than it used to be,'' said Rich 
Thompson, vice president of learning and performance for Adecco Group 
North America, the world's largest staffing firm. ``I don't have hard 
numbers, but three out of the last four conversations I've had about 
openings, this requirement was brought up.''
    Some job postings include restrictions such as ``unemployed 
candidates will not be considered'' or ``must be currently employed.'' 
Those explicit limitations have occasionally been removed from listings 
when an employer or recruiter is questioned by the media though.
    That's what happened with numerous listings for grocery store 
managers throughout the Southeast posted by a South Carolina recruiter, 
Latro Consulting.
    After CNNMoney called seeking comments on the listings last week, 
the restriction against unemployed candidates being considered came 
down. Latro Consulting refused to comment when contacted.
    Sony Ericsson, a global phone manufacturer that was hiring for a 
new Georgia facility, also removed a similar restriction after local 
reporters wrote about it. According to reports, a Sony Ericsson 
spokesperson said that a mistake had been made.
    But even if companies don't spell out in a job listing that they 
won't consider someone who currently doesn't have a job, experts said 
that unemployed applicants are typically ruled out right off the bat.
    ``Most executive recruiters won't look at a candidate unless they 
have a job, even if they don't like to admit to it,'' said Lisa 
Chenofsky Singer, a human resources consultant from Millburn, NJ, 
specializing in media and publishing jobs.
    She said when she proposes candidates for openings, the first 
question she is often asked by a recruiter is if they currently have a 
job. If the answer is no, she's typically told the unemployed candidate 
won't be interviewed.
    ``They think you must have been laid off for performance issues,'' 
she said, adding that this is a ``myth'' in a time of high 
unemployment.
    It is not against the law for companies to exclude the unemployed 
when trying to fill positions, but Judy Conti, a lobbyist for the 
National Employment Law Project, said the practice is a bad one.
    ``Making that kind of automatic cut is senseless; you could be 
missing out on the best person of all,'' she said. ``There are millions 
of people who are unemployed through no fault of their own. If an 
employer feels that the best qualified are the ones already working, 
they have no appreciation of the crisis we're in right now.''
    Conti added that firms that hire unemployed job seekers could also 
benefit from a recently-passed tax break that essentially exempts them 
from paying the 6.2% of the new hire's wages in Social Security taxes 
for the rest of this year.
    Thompson said he also thinks ruling out the unemployed is a bad 
idea. But he said that part of the problem is that recruiters and human 
resource departments are being overwhelmed with applications for any 
job opening that is posted. So they're looking for any short-cuts to 
get the list of applicants to consider down to a more manageable size.
    ``It's a tough process to determine which unemployed applicants 
were laid off even though they brought value to their company and which 
ones had performance issues,'' he said. ``I understand the notion. But 
there's the top x percent of unemployed candidates who are very viable 
and very valuable. You just have to do the work to find them.''

    Mr. LEWIS. Dr. Boushey, I have heard over and over again 
that the Recovery Act, it didn't help. That it didn't matter. 
Before the Recovery Act was signed into law on February 17, 
2009, we were losing about 750,000 jobs per month. Since the 
Act was signed, we have been creating jobs, more jobs. We are 
not there yet. But we are on our way little by little. It takes 
a little time to turn around a big ship. Could you respond?
    Ms. BOUSHEY. Certainly.
    I mean, it takes a little time to turn around a big ship, 
as you said. It is also the case that we have seen job growth 
coming back in the private sector. We are not seeing it come 
back fast enough.
    We knew the day that the Recovery Act was signed that it 
was big and it was bold, but there were many economists who 
said this isn't going to build a full bridge across that chasm, 
which is the massive unemployment that we are seeing. We have 
seen a lot of the dollars out there have been spent. It has 
created a lot of great programs. We have heard a lot today 
about this Texas program, which, of course, used TANF emergency 
funds to fund this--getting folks into these public-private 
partnership job training programs.
    So some of the things we are talking about today are the 
impact of that. But it is going to take some time.
    And I think I would urge us to just note that we still have 
an output gap in our economy. Even though we took this big 
step, it wasn't big enough relative to the big hole that we 
created.
    Mr. PAUKEN. Could I just respond? Just say one correction.
    Primary funding for that Texas Back to Work program was 
State funding. We did use some Federal funding, but the primary 
source was State funding.
    And I would simply suggest that since the stimulus program 
began, through May of 2010, it has been a loss of an additional 
2.7 million private sector jobs; and I don't know how you can 
call that a success.
    Mr. LEWIS. Mr. Chairman, I have a chart here. I wish 
everyone could see it: Change in Private Employment December, 
2007, to January, 2011.
    Chairman DAVIS. If the gentleman would like to put that 
into the record.
    Mr. LEWIS. Yes.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5329A.020
    

    Chairman DAVIS. Thank you. The gentleman's time has 
expired.
    Mr. Smith from Nebraska.
    Mr. SMITH. Thank you, Mr. Chairman; and, to the panel, I 
appreciate the discussion that we are able to have here today.
    Mr. Holmes, if you could reflect a little bit on some of 
this information here, and I have a question. Obviously, you 
are probably well aware of the numbers, that 4 million folks 
are currently collecting Federal extended unemployment 
insurance benefits. And since June of 2008, the Federal 
Government has spent a record $180 billion for these benefits 
and covering benefits in some States for up to 99 weeks. So 
this number is in comparison to the $23 billion following the 
2001 recession. Where is the money coming from, in your 
opinion.
    Mr. HOLMES. Thank you, Representative Smith.
    The money is coming from a series of--with respect to 
extended benefits, the money is coming from the EUC account, 
the Expended Unemployment Compensation account. That account is 
in deficit. I think the last I looked the two FUTA funded 
accounts were about $30 to $40 billion in deficit. That money 
is being provided then as a transfer from the general revenue 
into that account; and, in essence, it is adding to the Federal 
debt. Every additional dollar that is being spent now in 
extended benefits is adding to the national debt. So we are 
borrowing to pay for extended benefits right now.
    Mr. SMITH. But it is general funds conceivably from one 
State to another, given the varying conditions. We don't all 
get to enjoy the North Dakota status.
    Mr. HOLMES. Right.
    Let me just be clear about this. There are really two 
programs here. There is the emergency unemployment compensation 
that was part of the Recovery Act and actually enacted prior to 
that starting in 2008. That money is coming chiefly from 
Federal revenue directly. The other, the regular extended 
benefits which you are talking about that rely on targets 
depending on unemployment rates chiefly, that money is coming, 
as I described before, through the dedicated FUTA funded 
account and then an advance from general revenue.
    Mr. SMITH. Very good. I guess, for the record, Nebraska 
isn't too far behind North Dakota. There is some good 
employment situation.
    But certainly nationwide we do face those challenges. I 
think the issue of product demand or creating more demand for 
production is very important. I do share some frustration that 
I visited some businesses in my district that they do have the 
demand but they are so nervous about adding new employees. They 
just don't know what is coming down in terms of the regulatory 
front. They don't know what is around the bend.
    So does anyone else wish to comment on the situation?
    Ms. BOUSHEY. May I speak to that?
    Certainly this has been a few years of there has been a lot 
of change. It has been a dramatic economy, and you can 
understand why especially small- and medium-sized businesses 
have a hard time making commitments to hiring. But it also 
seems that we are seeing signs the economy is improving and we 
are seeing especially large businesses--they are the ones that 
are holding on to a lot of cash and not making investment, 
right? Investment is at its lowest level in five decades.
    That is one of the key questions that I would encourage you 
to think about, that you see--they may be a little concerned 
about--although some of those big decisions have in large part 
been made.
    Mr. SMITH. What do you mean by large? I am just curious.
    Ms. BOUSHEY. When I say small, I am typically thinking of 
the employer with fewer than a hundred people. Something sort 
of larger companies that are on the stock exchange, those kinds 
of companies that have made a lot of money are holding on to it 
and aren't making those investments here, creating jobs here in 
the United States.
    Mr. PAUKEN. Well, the majority of the new jobs 
traditionally are created by small businesses, and they are not 
creating jobs in this environment. That is why I think it is a 
structural employment situation; and they are appropriately 
nervous, in my judgment. So I don't see that the current 
approach is working well. And I think until they have 
confidence that you are serious about growing the private 
sector they are going to be reluctant to hire.
    And the other concern is we are seeing an up-tick in our 
State and elsewhere in temporary firms hiring. Normally, that 
is a prelude to permanent employment, but this may be different 
this time as companies are reluctant to put people on permanent 
payrolls.
    Ms. COX. May I make one comment please?
    It is more the moral dilemma I kind of struggle with. Utah 
is one of the few States that has not taken EB by choice. And a 
while ago, I guess it was a year ago, we were at a conference 
and someone from the Federal level couldn't believe we weren't 
taking it. Well, it is free money.
    And sometimes in these discussions when you are at the 
State level versus the Federal level, it seems like there is a 
disconnect, that all of the money is ours and those who have 
responsibility also need the authority. And so those at the 
State level we talk about our general funds, and then at the 
Federal level it is the Federal dollars. And there seems to be 
this, I don't know, disconnect that all of that money is ours--
EB, EUC. And so it is easy for States to sometimes not worry 
about it as much because the Federal Government is going to 
handle it.
    I have to go in front of my State legislature over my 
general funds, and I feel super accountable about that. But, 
man, if it is EUC money coming in, I am worried about it, but I 
am not in front of you guys having to be accountable even 
though we are the pass-through. So that mind-set is concerning 
to me.
    Chairman DAVIS. Excuse me, Mrs. Cox. The gentleman's time 
has expired. You have a few seconds to wrap it up.
    Mr. SMITH. If you wouldn't mind submitting anything for the 
record, I would appreciate it as well.
    Chairman DAVIS. We would appreciate perhaps a detailed 
response in writing to that question. That way you won't be 
constrained by the clock.
    [The information follows:]
     Mrs. Kristen Cox. Executive Director, Utah Workforce Services
    Supporting Increased Flexibility of Resources: Separate federal 
funding sources and associated program boundaries can present obstacles 
to integrated service delivery. Federal law and Department of Labor 
regulations place clear limitations on how UI, Wagner-Peyser, and WIA 
funds can be spent. While the intent of the limitations is to ensure 
effective and appropriate program administration, the effect can be to 
make cross-program integration difficult.
    WIA Title I funds may not be spent on employment generating 
activities, economic development, and other activities, unless they are 
directly related to training for eligible individuals. Providing less 
restrictive regulations for WIA statewide activity funds could provide 
greater flexibility in getting individuals re-employed. Other program 
issues to consider include:
    Real-time access to federal data about customers. This could reduce 
administrative costs, support a more streamlined process for the 
customer, and ensure more accurate delivery of services. For example, 
access to Social Security information (SSN verification and benefit 
payments) is available to states for public assistance programs such as 
TANF, SNAP, and Medicaid. However, it is not currently available to 
support other programs such as WIA and WOTC.
    Expanding the scope of the UI program to achieve claimant re-
employment would be an efficient use of funds and would help claimants 
become re-employed as quickly as possible.
    WIA, TANF, and SNAP programs offer waivers and more flexibility. If 
unemployment is one of our largest issues, why not give states more 
flexible options to help re-employ job seekers?

        <bullet>  DOL has recently shown good leadership with its focus 
        on re-employment, its wage subsidy grants, and state consortium 
        initiatives. It is time to connect benefits and employment into 
        a seamless service delivery strategy without creating funding 
        barriers.
        <bullet>  Utah has implemented multiple initiatives to help UI 
        claimants become re-employed sooner. A few of these initiatives 
        have been recognized at the national level. The U.S. Department 
        of Labor awarded DWS the 2010 UI Innovation Award for our 
        electronic correspondence system and the American Institute of 
        Full Employment awarded DWS the 2010 Best Practices Award for 
        our on-line worker profiling re-employment service program. 
        These initiatives have helped Utah enjoy one of the lowest 
        average UI duration rates in the country--16.6 weeks, despite 
        having a fairly high wage replacement rate. While we have made 
        significant progress, our goal is to continually strive to 
        improve services for employers and job seekers.

Summary of Recommendations
    Establish clear expectations for claimants that re-employment is a 
priority and requires a full-time commitment.
    Provide employers with wage, training, and tax incentives that 
provide economic benefits for employers to expand or retain their 
workforce.
    Increase program and funding integration that supports effective 
meshing of UI claimants with employers' workforce needs. Expansion of 
the Worker Profiling and Re-employment Services and REA grants are good 
examples of integrated funding between UI claimants and re-employment 
services.
    Increase flexibility of resources to make cross-program integration 
more efficient without creating funding barriers or jeopardizing 
program accountability.

    Chairman DAVIS. Mrs. Black from Tennessee.
    Mrs. BLACK. Thank you, Mr. Chairman.
    My question is for you, Mr. Holmes, but any of you can 
answer that.
    I want to go back to the work search, because I was back in 
my State last week doing a listening tour. I visited a number 
of smaller companies and some manufacturing, and they indicated 
to me that they thought that there was a problem with the way 
in which the surveys are done.
    And you actually have in your testimony, you say, a recent 
survey of State unemployment agencies conducted for the UWC by 
the National Foundation for Unemployment Compensation and 
Workers' Compensation had 39 States reported exceptions to the 
general work search requirements, and one State reported that 
it had no work search requirement as a condition of eligibility 
for unemployment.
    Mr. HOLMES. Correct.
    Mrs. BLACK. And what I heard from many of these employers 
was that they knew of people in their own community that they 
went to church with, shopped at the grocery store, kids went to 
school with them, that would put down on the paper three 
different companies they went to when they never went there, 
and they just said, I still have this extension so I am not 
going to look for work. And these are jobs on average that--I 
asked what the salary was. So their average was about $15 an 
hour, so that was not a bad salary. But they were really 
concerned they weren't able to get employees in their door and 
still there was a high unemployment rate in this particular 
county that I was in.
    So I would like for you to speak to that and any one of the 
rest of you that might have suggestions of what we might do to 
make sure that the people who are unemployed, we are reaching 
the right population.
    Mr. HOLMES. Thank you for that question.
    I think that the experience that was relayed to you is 
fairly common across the country. That over the last, I would 
say, two or three decades, there has been less of an emphasis 
on the accountability of individuals to search for work and to 
take it seriously and also on whether or not those work 
searches are meaningful, do they have a plan to get back to 
work. A number of things that were often done in prior decades, 
I would say, more attention paid to that has been lost to some 
degree because of the focus on paying unemployment as quickly 
as possible.
    So I think that--and I mentioned this in my testimony--we 
need to establish some minimum standards for work search that 
everyone can note and that individuals would be expected to 
meet, and that way we would change the culture back to the idea 
that there is a personal responsibility to search for work in a 
meaningful way.
    Mr. PAUKEN. If I could add, in addition to that, I think 
that if you have the Federal extended benefits, if you also--
those people on Federal extended benefits would have the option 
of getting the GED, getting additional vocational technical 
training, or if they didn't do A or B, do community service at 
a reasonable dollar value with local municipalities or fine 
non-profits like Habitat for Humanity. And I think the people 
who are gaming the system will choose not to do A, B, or C; and 
they are off the system. And the others, you give them an 
incentive to sort of get back in the system and kind of prepare 
yourself for a job.
    Ms. COX. One more thing. I don't think we have to reinvent 
the wheel. When you look at TANF, we certainly don't want to 
have the same participation requirements on TANF as we do on 
the UI customers, but there are lessons learned both in food 
stamps, E&T, employment and training, TANF and different 
aspects of UI when you work in an integrated model like we do.
    And I think it is about taking the best of all of those 
words. Accountability and expectations are certainly there. 
Random checks is part of it. Technology offers a lot of new 
ways to monitor logs and journals and actually document if 
people did their training on line. There are new technologies, 
and you can really blend that so it is not a one-size-fits-all 
approach.
    But those lessons I think you can find when you do some 
deep digging of how you pull the best practices around work 
first. It is our motto in our department: If you can work, you 
do work across all programs. And that is our model of trying to 
create an integrated system for all of our claimants, 
regardless of if you are food stamps or UI. It is a seamless 
system.
    Mrs. BLACK. And I am a big States rights person. So would 
you suggest that this be something that we would do in some way 
as a carrot to encourage some States or do we do it with a 
stick and penalize if you don't do what these criteria would be 
set out?
    Mr. HOLMES. If I may, I think that we have in the UI system 
since it was started this requirement that is implied that 
people be available for work and actively seeking work as a 
condition of being paid, but it is not in a statute anywhere. 
So just this statement in Federal statute just to clarify that 
would be helpful, I think.
    Chairman DAVIS. Thank you. The gentlewoman's time has 
expired.
    I want to thank each of our witnesses for your testimony. I 
want to thank you for investing the time and the research to 
share your opinions. It is an issue I care very much about. I 
know Mr. Doggett cares very much about this, approaching the 
process issues to help people in need and at the same time 
address the structural questions that will assure good 
stewardship of the resources. And we appreciate your help in 
understanding this issue further and look forward to continuing 
the dialogue.
    If any of our members have additional questions, they will 
submit them directly to you in writing and what we would ask is 
you submit your responses to us for the record so all members 
will have access to that information.
    And, with that, the committee stands adjourned.
    [Whereupon, at 5:00 p.m., the subcommittee was adjourned.]
    [Submissions for the Record follow:]

                      Statement of Yvonne Goersch

99ers Need Help While Waiting for Job Creations!!!!
Name: Yvonne Goersch
Title of Hearing: 99ers Need Help While Waiting for Job Creations!!!!

    The fact that I need to have a place to stay feed my child and to 
just survive while these jobs are being created is the most important 
thing in my life right now.
    I have worked my whole life and never thought this would happen to 
me I have sent at least 20 to 30 resumes a day and have gone to places 
and have only gotten 2 interviews which I did not get the job. I know 
there are people that say we aren't doing anything but sitting around 
collecting money that is completely wrong and also very upsetting .
    It drags all of us to a place where we don't and shouldn't be 
because we don't deserve it. We appreciate what the Government has done 
the fact that they only put in a 13 month extension and didn't include 
the 99ers is so wrong and now that the Republicans are a majority in 
the House it doesn't seem like we get any attention even though the 
Speaker of the House said if it is paid for we will get it through and 
they found a way to pay for it so it needs to be done!!!!!!!!
    We have to have money for gas to get to interviews and a roof over 
our head and food to eat while we are still looking for jobs that are 
going to be created.
    We help every other Country but the Government isn't willing to 
support 1.5 million people in the United States (that number is not 
correct either) and the fact that the unemployment went down to 9% from 
9.4% is also not correct it is a way for the Government to say things 
are getting better and we are doing our job.
    Well guess what even though you said 1.5 million people isn't 
really that much compared to how many people are on unemployment is so 
wrong to count us out while we voted for you and are about to have 
nothing.
    I don't have people to help me and I need that extra time and money 
since the job market is getting better to sustain me and my child so I 
can keep looking and driving there.
    Don't push us out because of our debt because this money would go 
straight into the economy and that will help the economy and help the 
99ers survive before you have people's lives on your conscience while 
you are living quite good and not worried about 1.5 people (which I 
know is not correct) we are losing hope and you guys are the only 
people that can help us for now and we need you to make sure we are 
taken care of while looking for jobs!!!!!!!!!!!
    We need this bill to pass ASAP HR6556 because it is all we have for 
hope and time to keep looking otherwise it will be the end of a lot of 
99ers so please do the right thing and help us and help the economy to 
keep going!!!!!!!!!!!!!!!

Thank you,

        Yvonne
                                 <F-dash>
                       Statement of Joyce Fields

    I have a story to tell. It is a story heard over and over again all 
across the country, by millions of unemployed Americans.

PLEASE HELP U.S., THE UNEMPLOYED, GET BACK TO WORK. AND THERE ARE A LOT 
        OF ``US''.
PROFESSIONALS CANNOT FIND JOBS
    I am in my 50's and have worked hard all my life. Yet for the past 
year and 9 months I've been unemployed. A very humbling experience, 
since I held a professional banking job for almost 30 years before 
being laid off. Since I am single, I was able to move across the state 
to take another job. That job ended a few months later. The company cut 
my hours to 19 hours a week then laid me off.

LOOKING FOR WORK
    I have sent out hundreds of resumes. I've even gone through the 
phonebook, sending resumes to every company nearby. To no avail. I have 
applied at fast food restaurants and cashiers jobs and was told I was 
overqualified. My last interview was six months ago. At that time, I 
interviewed at a large manufacturing plant. I was told over the past 
year almost half of their 1,500 employees were laid off and their jobs 
were sent to China and India. The employees who remain are working 45+ 
hours a week. The position I applied for was part-time and temporary. 
It took months of persuasion, I was told, for the department manager to 
convince the company to fill this one part-time, temporary position. I 
also applied at a national retail store. There I was told my hours 
would be 0-24 a week, at minimum wage. Zero hours a week? This is 
happening at more and more companies. Because they know people are 
DESPERATE, employers can do whatever they want. Including denying 
employment to the long-term unemployed. Age discrimination is also a 
factor. Although companies do not ask your age, more and more are 
including round-about questions such as ``what year did you graduate 
high school''? This should not be legal. I have a lot of experience, 
good workmanship and good values, and know I can bring a lot to a 
company. I should not be denied a chance to work there because I am 
older and because I haven't been able to find another job since my last 
job was outsourced. I did not ask for that. I want to work!

THE HOUSING MARKET AND CRIME
    Rather than losing my home to foreclosure, I put it up for short 
sale. There was a buyer and signed purchase agreement in February 2010. 
The prospective buyer pulled out after 3\1/2\ months, since the Bank 
did not approve the short sale by that time, even though the buyer 
offered $56,000 and the principal balance on my loan was $56,008. The 
Bank would rather foreclose than accept an $8.00 principal loss on a 
short sale? I have since lost my house. The Bank sold it at sherrifs 
sale to Freddie Mac for $30,000. My house appraised at $114,000. Why 
should I owe my bank the difference? They would not work with me to set 
up a loan modification, or accept a short sale, and they were in 
possession of a home worth almost twice of what was owed to them. Yet 
they sold it for $30,000 and now expect me to come up with the 
difference. The Bank lost my loan documents, and furnished me with an 
affidavit which I later found out was illegal. Why are Banks allowed to 
get away with this?
    The house next door was empty for over a year, bank owned, after 
the owner lost her job. The house across the street was sold at 
sherrifs sale several months ago. The house next to that one was empty 
for a long time, another bank owned property. It is a ghost town, and 
where I once felt safe, there have been many robberies lately in my 
neighborhood. Why? Because people have lost their jobs and are getting 
more and more desperate. They are stealing, not for drugs, but in order 
to put food on the table, and to survive.

THE EFFECTS OF LONG TERM UNEMPLOYMENT
    The unemployed are losing their homes, and who will rent to them if 
they do not have a job? Keeping utilities on is a struggle. Cell phones 
and cable TV are now ``luxuries'' and are cancelled. I live alone and 
have no immediate family, and must depend on others for assistance, 
which burdens them. I get harassed by creditors and my credit is ruined 
(and prospective employers run credit checks). Cannot afford medical 
coverage. Never eat out anymore. Never go shopping anymore (but I did 

recently hit the thrift store for a 50% off sale).
THE EFFECT OF THE GOVERNMENT STIMULUS ON THE UNEMPLOYED
    The banks received trillions of dollars in bailout money, including 
the one I worked at. Banks received money, yet cut down on their 
employees and as a result I lost my job. Banks received money yet would 
not work with me to modify my loan, would not accept a short sale, and 
foreclosed on my home. Banks received help, U.S. citizens as 
individuals receive very little help and are being evicted from their 
homes. Why is the government turning a blind eye on the unemployed who 
need help, while helping Big Business line their pockets?
    And why can't unused Stimulus Funds be used to help the unemployed 
who have exhausted their benefits, until they can work again?

DON'T IGNORE US, WE NEED HELP
    This is a nationwide crisis. Something needs to be done to create 
jobs immediately, and also unemployment benefits need to be extended 
for those who have exhausted their benefits. It is reported that 
unemployment numbers are down for the month of December 2010, yet job 
creation numbers are still in a slump. How can this be? Please fix the 
``system'' so reporting is done accurately. Letting UI benefits run out 
for the unemployed who cannot find jobs creates millions of exhaustees 
or ``99ers,'' which further hinders economic growth. With no money to 
spend, we cannot help stimulate the economy. Without jobs, the 
unemployed will lose their homes, which mean less money cities receive 
in the form of property taxes. Without jobs, the unemployed pay less in 
taxes; this hurts the Federal, State and local governments. The 
unemployed are then forced to depend on State and County funds for food 
and housing, who in turn will need to borrow money from the Federal 
Government. Yet, more and more of those programs, the last few 
resources we have to help us, are being cut.
    Currently there are too many unemployed people and too few jobs. We 
WANT to work. We want to feel good about our lives and ourselves again. 
The government needs to HELP us, the unemployed, until the economy 
turns around and we can find jobs. AND THERE ARE A LOT OF ``US''. And 
we are SCARED. Americans should not have to live in fear like this.
    Thank you for reading my story, ``our'' story.

    Joyce Fields
                                 <F-dash>
                      Statement of Jennifer Snyder

Committee on Ways and Means
Feb. 7, 2011
RE: Hearing on Improving Efforts to Help Unemployed Americans Find Jobs

    My husband has been unemployed for exactly two years now after 
working for the same company for almost thirty years. Since being laid 
off, he has submitted 100's of resumes, granted only 6 interviews and 
has received 0 offers of employment. Most of the time he never hears 
back from the jobs he applies to and it is very frustrating. He runs 
out of unemployment benefits in April and we have little hope that he 
will have a job by then. He is 50 years old and suspects that he is 
being discriminated against because of his age. Although illegal, 
ageism is very hard to prove. This is his story, but there are millions 
of Americans that have this same story. Imagine yourself at 50--jobless 
and unwanted.
    He has a considerable amount in his 401k that he would like to use 
to start or buy a business, but the thought of paying taxes and penalty 
on any withdrawal makes us cringe. I wrote Senator Debbie Stabenow in 
October about this matter and she replied that a bill was introduced in 
March of 2009 (H.R. 1628) to make hardship loans, without penalty, but 
it was still pending before the House Ways and Means Committee. I then 
contacted the Ways and Means Committee asking for the status of this 
bill and never received a reply. This bill was never acted on and is 
now dead. I am wondering why.
    I am urging you to please reintroduce this legislation and act on 
it. Too many Americans, like my husband, it just might let them make 
the transformation from unemployment to self-employment and it wouldn't 
cost the government anything.

        Jennifer Snyder
                                 <F-dash>
                              Lori Parker
                                        Thursday, February 10, 2011

Dear Committee Members:

    I was laid off in January 2009 from my position at a non-profit 
that provided support services to adults with intellectual 
disabilities. After the financial crash, the social services job market 
evaporated because of severe budget cuts in state and federal funding. 
I know the budget cuts were across the board, i.e., in all social 
services across the state, because of the drastic budget cuts occurring 
in both state and federal funding for social services. For over two 
years I have tried to find a replacement position. But unfortunately, 
since all social services have been downsized due to budget cuts, there 
aren't any positions.
    During the time I have been laid off, I repeatedly went to the 
Career Center at the Unemployment Office and requested re-training, as 
it was clear to me the social services industry was basically on life-
support, and there would not be any jobs in the field for many years. 
The career center said I wasn't eligible for the retraining program 
because I was not in the category of people who were eligible for the 
Trade Readjustment Act (losing a job in the manufacturing sector) in 
which people in manufacturing were eligible to go to school for 
retraining, and keep their benefits while they were learning a new 
skill to sell on the job market.
    In fact, I was told that if I went back to school to retrain, I 
would lose my unemployment benefits, while the people who were in 
manufacturing could go to school, and keep getting their unemployment 
benefits. I was also told that because I already had a four-year degree 
(sociology), that also disqualified me, even though I received my 
degree in the early 90s, and my degree was no longer a marketable 
degree, especially since my work experience was in the social services 
field, and the new jobs that have emerged don't require these 
credentials.
    Because so many jobs have been outsourced, and the American economy 
is changing into different types of services (green economy, etc.), the 
job market has drastically changed. Many of us who hold bachelor's 
degrees, associates degrees, etc. from twenty and thirty years ago, are 
having difficulty finding a job because we are older workers, and 
because there is no demand for our past area of training. We need 
viable opportunities to retrain. We cannot retrain if we are homeless. 
We need workable solutions that take into account that we need a roof 
over our heads while we retrain. Even a one-year certificate program in 
the new emerging industries is more likely to get us a job than the 
meaningless four and two year degrees that we got 20 and 30 years ago. 
We need new skills on top of our old skills to have a chance to compete 
in such a retracted and changing job market. Jobs are few and far 
between, and those that are there require new skill sets we don't have.
    My suggestion would be to extend unemployment benefits for one year 
to those out of work for more than a specified number of weeks, and 
provide free training at a one-year certificate program for them, and 
not disqualify people just because they already have a degree from two 
and three decades ago. A one-year certificate in a new, emerging field 
would give people the new skill set they need to enhance their old 
degrees.
    We have children to take care of. Please help us.

                                 <F-dash>
  STATEMENT OF MARTIN G. THOMAS, ACTIVE MEMBER OF THE AMERICAN 99ER'S 
                                 UNION

    My dilemma in this unemployment search is never ending it seems. 
Hundreds of applications, 3 interviews, no job, simple. I've applied to 
everything I feel I'm qualified for. Even an ``all you need is a 
heartbeat job'' that caters to low paying alien labor. This is 
destroying America. The President says to get a degree and get a good 
job. Speaker Boehner says you need to get an education to have the 
``American Dream.'' That's all fine and well understood, but people are 
already trained, have degrees and still don't have jobs. How can you 
have any faith in the words from our leaders when these things have 
already been accomplished and there is no jobs available? Here's a 
quote from the President:

        October 13, 2010 11:45 AM
        Obama: ``No Such Thing as Shovel-Ready Projects''

        You can't argue with the horses mouth!!!
     This a true statement, ``There are three types of lies; lies, 
        damned lies, and 
          statistics.''--Mark Twain

    I'm fed up with being lied to, and America has been uninformed. 
Because of failed job creation policies and the emphasis on the useless 
health care bill that no one was able to read is appalling. Why do I 
have to suffer along with millions in my situation? We didn't ask for 
health care. Jobs are needed first. We can't live on health care! I 
can't pay my essential living expenses on health care. Without a job, I 
can't afford health care. To lay this burden on family and friends is 
unfair. America was lied to when they were told the 99ers had their 
benefits restored. There is 6-7 million and growing without benefits 
still. The unemployment rate is more like 18%. I can do the math. I/WE 
are treated like idiots and we're offended.
    It's very discouraging I'm qualified for my field as a Maintenance 
Technician. Yes, there's always room for improvement. In this field, 
you get it on the job. I have no daily routine. Until the jobs appear, 
I/We need our benefits to survive. I/We want jobs and not asking for a 
hand out when requesting an extension of unemployment benefits.
    The United Nations sends billions of American dollars to foreign 
countries in need of emergency assistance and they won't help America. 
What's wrong here? There's a national emergency here in AMERICA!!! SOS 
. . . THE FLAGS UPSIDE DOWN, DISTRESS . . . Can you hear me now???
    I don't know who the President addressed when he told Americans to 
get educated and get a job. Is there a new private America we don't 
know about? Was he speaking to people in China??? To throw words at us 
that America needs to be retrained for jobs. That's insane, people have 
training, there are no jobs. Outsourcing American jobs to China and 
other 3rd world countries doesn't help.
    Where's the America I once knew? If our forefathers were alive, 
they'd be ashamed. Please extend unemployment benefits until the jobs 
appear. Extending tax cuts to millionaires doesn't help me today. To 
leave me stranded and all the unemployed is wrong.
    Thank You, and please help me and all the 99ers, Martin G. Thomas

                                 <F-dash>
                            Elizabeth Steere
                                                   February 9, 2011

To: House Ways and Means Committee, Sub-Committe on Human Resources

    I am writing to urge you to take quick and immediate action on 
behalf of the Unemployed in America, especially the large number (which 
is growing larger with each new day) of long-termed unemployed who have 
already exhausted all available unemployment benefits (Exhaustees/
99ers). Many of us do not qualify for any assistance from local, 
county, state, and Federal Government programs for basic living needs 
such as food, shelter, required daily medications, clothing and 
assistance with utilities to keep themselves warm through the winters 
and cool through the summers. For those who may qualify for some of 
these programs, they are not being assisted because many of the charity 
and government organizations who provide said programs used to assist 
for these types of necessities have suffered budget, funding and 
donation cuts. How are the Unemployed in America to survive, until such 
a time when jobs are plentiful and they are once again able to sustain 
themselves and their families? Without the lifeline of Unemployment 
Insurance Benefits, the unemployed will not be able to procure the 
basic necessities required to simply live.
    I am also writing to urge you to resolve the issue of insufficient 
jobs in America. The Unemployed in America are not content to merely 
exist from the lifeline of Unemployment Insurance Benefits. We want to 
be able to rebuild our lives, our savings and our hopes and dreams for 
a brighter tomorrow. We are unable to rebuild without JOBS. We 
desperately need your assistance so that we can again realize a bright 
future for ourselves and our loved ones. Therefore, JOBS must become a 
high priority for America for without it, America will be unable to 
compete and sustain the standards in which our country was founded 
upon.
    This brings me to my next point. The American government entities 
cannot create jobs, nor can they force an employer to hire, and I 
understand this. American government has created incentives for the 
employers to hire, as the American government has given the financial 
sectors stimulus funds to assist borrowers. However, the employers and 
the financial sectors have not been pro-active with the government's 
calls to action. Simply put, they are not helping improve the current 
economic crisis. Today's high percentage numbers in unemployment, 
foreclosures, automobile repossessions, homelessness, bankruptcy 
filings, overall personal debt, and so much more reflect this point to 
be a fact, not an opinion.
    Plain and simple: Unemployment benefits are a lifeline for the 
unemployed. It will stimulate the economy, as the unemployed are all 
consumers. It will also prevent rises in the percentages of 
foreclosures, homelessness, bankruptcy filings, vehicle repossessions, 
overall personal debt and so much more. Therefore, by adding weeks to 
the Emergency Unemployment Compensation program and by creating JOBS so 
that the Unemployed in America may rebuild their lives, it will benefit 
all of America and the people within this great nation.
    Re-establish our trust in the government systems and assist us in 
re-building our lives; re-instill our faith in the goodness of 
humanity, in our legislators and the overall system of government 
within our nation; assist us in being proud again to be Americans. Pass 
and/or create the bills necessary to create additional benefit weeks. 
Our lives, the lives of our family members, and the overall economic 
health of America is dependent on this to survive and overcome the 
current economic crisis.

Thank you,

        Elizabeth A. Steere
                                 <F-dash>
                            Rochelle Sevier
From: Rochelle Sevier

Title of Hearing: Improving Efforts to Help Unemployed Americans Find 
    Jobs

Dear Congressman Geoff Davis (R-KY),

    Thank you for conducting the Hearing for Improving Efforts to Help 
Unemployed Americans Find Jobs.
    I was laid off in October 2008 and have yet to be able to secure 
any employment despite having a Bachelor's degree in Business 
Administration and a Master's degree in Communications Management. I 
have submitted hundreds of resumes but have little to no responses to 
jobs that I have applied for.
    At this point in time I am willing to take any job since I am a 
99er and have exhausted all my benefits and have no income. I am unable 
to secure part-time, full-time or even temporary positions. I feel as 
though I will never work again.
    It is crucial that Americans be put back to work as to stimulate 
the economy and get them off government assistance programs. Americans 
are living in dire situations and need jobs NOW! We cannot hold on much 
longer, particularly for those like myself who have exhausted my 
unemployment benefits and have no job.

Sincerely,

        Rochelle J. Sevier
                                 <F-dash>
                              Ellen Turner
Jobs Committee February 7, 2011

    I have been out of work for 99 weeks. Therefore I am a ``99er''. 
What does this mean? It means that due to no fault of my own, I have 
not been able to find a job.
    My skill set is a graphic designer. I have a BFA and two 
certificates: one is Desktop Publishing and the other in New Media 
Technology.
    I have found short term freelance and temp work only.
    Most of the jobs in my skill set have been outsourced to India, 
Pakistan, China, Ireland and England.
    This is very discouraging.
    I have a mortgage to pay.
    I am now receiving early SS, because I do not have any other 
recourse, at this time.
    It just covers my mortgage.
    For the sake of Americans who have been out of work for this long, 
please consider some sort of job programs for us to get back in the 
work force.
    I have applied outside of my skill set for clerical work. I have 
not gotten any responses. Plus, I have applied for retail jobs, and I 
have not gotten any responses. I do follow ups on every job that I 
apply for.
    The national unemployment rate has gone down to 9%. I believe, this 
is a result, of many Americans no longer on the unemployment charts due 
to exhausting benefits.
    Please, help us, any way that you can. There is nothing like work 
for self-esteem and pride. Not to mention, being able to put food on my 
table and pay for medical care, which I desperately need.

Sincerely,

        Ellen Turner
                                 <F-dash>
                              Paul Pittman
                                        Thursday, February 10, 2011

Committee on Ways and Means
U.S. House of Representatives
Washington, DC

Representative Dave Camp:

    As a former veteran of the U.S. Air Force, I have watched our 
freedoms continue to dwindle along with our voices. Now, it seems that 
for some reason, our country appears to want to turn its back on the 
people who tried to work and make it a better place to live. 
Additionally, it seems set on creating a future generation of potential 
workers that will enter the workforce with a negative desire to achieve 
as well as a tainted attitude toward their leaders.
    After honorably separating from the Air Force in 1992, I settled in 
Wisconsin with the hope of creating a stable future for my family. 
Things were working well: I was progressing in a management career in 
the transportation industry and felt confident about the future. 
Confident enough to even buy a house. In 2009, that changed as the 
economic woes finally caught up with the industry. The small business I 
worked for could no longer afford to staff me so I was let go with the 
``promise'' of rehiring when things turned around.
    Unfortunately, they did not turn around and so I made a decision 
with my family that I would return to school to try and tie up my work 
experiences into a more marketable package. I took an accelerated 
course (at my expense) and earned my Associates degree in less than a 
year. Unfortunately, the job market in the region had deteriorated to 
the point that it was now saturated with so many in my same situation; 
to the point that an Associate's Degree was not really a viable tool 
any longer. So I continued on and began working on my Bachelor's degree 
in late 2010, still without a job.
    On January 22, 2011 I was notified that my Unemployment benefits 
had been exhausted. After finally getting through to the Wisconsin 
Department of Workforce Development, I learned that I could apply for a 
provision as a student. On February 5th, I was denied this because I 
was enrolled in a school that offered a bachelor's degree [WI 
108.04(16)(a)1.d. The course does not grant substantial credit leading 
to a bachelor's or higher degree;].
    So without an income, any hope of trying to redo our housing loan 
is gone so it will continue in foreclosure. Because of the wording of 
this law, there is no hope of trying to appeal the decision, even 
though I have: All because I am trying to better myself in a way to get 
a job. My daughters ask me if we are going to lose our house: I cannot 
answer them because they are in a school that is working well for them. 
My wife is concerned that my depression may be getting worse; although 
I do not know why it would. They tell us that unemployment is dropping. 
Could this be because so many like me are no longer on the unemployment 
role because we have been forgotten about or overlooked? Please allow 
me to tell those of you who have never had to deal with losing a job 
that we who supported you in your elections for change do still in fact 
exist! We are told that the economy is rebounding. Until I am back on 
my feet and able to provide for my family; I do not believe it!
    You are now looking at an emergency extension of benefits for those 
of us that time has seemingly forgotten about. What I am asking you to 
do is look back a bit when the United States government bailed out the 
banks and the auto makers. They did so readily and without question. So 
now, why is the possibility of bailing out the actual Americans that 
have worked to make things better for their entire lives such a hard 
decision? Does America and its government want to invest in their own 
people or should they be swept away like yesterday's garbage? So far, 
that is the way it appears to us who have been forgotten about.

Thank you for your consideration and time,

Paul Pittman
One of the newest ``99ers''
                                 <F-dash>
                       Statement of Tracy Santee

    I'm a single mother and have always been a single mother except for 
the first year of my son's life. I have always had a job and supported 
my son, but sometimes shared rent with family and friends for many of 
his first years. I finally got my own place while I was in my late 20s. 
A place that I could afford on my own . . . a trailer in a trailer 
park. It isn't the perfect place, and we were and are still teased 
because of where we live, but it is and was always stability for my 
son. He went to the same school system for a majority of his life and 
we did well here.
    I worked for 12 plus years at a great company that was sold to 
another/a merger that didn't provide me with another job. After that, I 
was unemployed for a few months, found a few temporary jobs, and then 
finally found permanent employment for eight years at my last job. I 
lost my last job due to lack of work/I was laid off. My last employer 
has not only laid off many people, but he has cut his work week down to 
four days to eliminate costs. I AM UNEMPLOYED. Since I have been 
unemployed, I have lost 20 pounds due to hunger. I am down to 92 pounds 
and it shows. I do not have the money to pay for food as I did while I 
was employed and I do not qualify for food stamps. I have cut down my 
household costs as much as I could. I still have my car, and intend to 
keep it as it may be my home soon.
    I have three more years left on my mortgage but I do not see any 
way that I can keep my home (yes, my trailer is my home) if I cannot 
find a job. I have been unemployed for almost two years. I have been on 
at least 25 interviews, sent out thousands of resumes, yet I still 
cannot find employment. An unemployment extension for the long term 
unemployed would help me/my son and MILLIONS of others to buy some time 
to help find a job and KEEP OUR HOMES!! If the government can provide 
us with jobs, ALL THE BETTER!!! We, the long term unemployed, don't 
want hand outs and we don't like to be at home every day with no 
purpose in our lives,--WE WANT TO WORK AND WE WANT JOBS!!!!!!!
    It is crystal clear to me . . . there are jobs, BUT we are 
competing for these jobs. There are at least 15 to 20 people 
interviewing for the same positions YET ONLY ONE PERSON WINS THE JOB. 
Soon, I will be homeless. My mortgage company will foreclose on me. The 
trailer park will evict me. My son . . . how will I take care of him??? 
How will I take care of me???

        Tracy Santee
                                 <F-dash>
                             Janice Nichols

                                        Thursday, February 10, 2011

To: House Ways and Means Committee
Hearing for Jobs for Unemployed

    You have no idea how hard it is to have been laid off for over 3 
years. My most recent experience has been in social services and there 
are no jobs. These jobs depend upon excess money in the economy and 
charitable contributions. Obviously, there is no excess money in the 
economy and charitable donations have decreased.
    I have a B.S. degree in Management and Human Relations and have a 
business background, also. Outsourcing has taken a lot of jobs and my 
technological skills need updating.
    The economy is changing. As an older laid-off worker, I need 
retraining. We need a program that will provide unemployment for us for 
a year, along with one-year free training in order to upgrade our 
skills and become more employable. The longer we stay unemployed 
without available jobs, the less desirable we become to employers.
    We need help to survive and we need jobs. I am a widow who has lost 
her home and my son and I have found it necessary to move in with 
relatives. I have always been able to find a job before the economy 
took a nose dive. This has taken such a toll on all of us. It is 
unbearable to think that this great country cannot provide jobs for 
their citizens!!!
    Please help us. You are not having to go through this. You are warm 
and well fed and your bills are being paid. Come down to our level and 
have some compassion.
    It is your duty to help us!

Sincerely,

        Janice Nichols
                                 <F-dash>
                              James Bufton
                                        Thursday, February 10, 2011

Chairman Camp,

    Americans want to work. The current political bantering is 
unacceptable and unproductive. Trickle down does not and never did 
work. History bears this out. We are facing actual (U6) unemployment 
number of well over 16%. No one disputes this. Yet, the heartless 
millionaire conservatives would allow decent hard working Americans to 
be cast aside and forgotten rather than face the problem and the 
reality at hand.
    I will exhaust my UE insurance in a couple of weeks and with my 
savings mostly depleted will soon lose everything this disabled veteran 
has worked for all of his life. At age 62, even with a very credible 
and successful work history, I am unwanted. Discrimination is rampant 
and the conservatives want us to just go off and die somewhere so they 
can deal with further enriching their cronies.
    I first advocate the 14 week extension that Ms. Lee is introducing 
to the House so those in harsh climates will not freeze to death when 
living on the streets. Further I endorse a public works program where 
displaced workers can engage in all sorts of activities that budgetary 
constraints have diminished. Tutoring challenged students in 
fundamentals, helping the aging lonely, painting schools in ill repair, 
teaching computer skills, and countless other projects. What community 
would say: ``We really don't need any of these things.'' That was 
rhetorical, sorry.
    Please stop pandering to the rich and DO SOMETHING concrete and 
measurable to create jobs in AMERICA.

Respectfully,

        James Bufton
                                 <F-dash>
                             Scott Carlson
                                        Thursday, February 10, 2011

Scott Carlson
Title Hearing: Tell a Compelling story.

Dear Committee,

    I had a job that was ok, I was making money even though it was not 
much, it was steady and I had it for 6 years. Then all of a sudden 
about 3 years ago, it was gone! I made some wrong choices when I was 
young and I don't have a Drivers license, I was happy to get that job 
because it was not that far away. I walked in the rain and snow to get 
there every day, because I knew how lucky I was to have it. Now it has 
been taken away and no one will even look at my applications because, 
for one the new standard with almost all employers are that they 
require a Drivers license and a background check, even for a basic 
$7.00 to $8.00 an hour job. Also because it has taken so long for some 
jobs to come back, employers are only hiring people who have been out 
of work 6 months or less, this is a fact! and if you search the job 
listings you will see this requirement with many employers. I am only 
making it because I live with a friend who is on DISABILITY and he only 
brings in about $770.00 a month. It is amazing we are even making it at 
all. I understand jobs are number one, However the people who have been 
out of work the longest are the ones who will be hired last. This is a 
fact! anyone who thinks the first unemployed get hired first are living 
in a dream world! We have and still are being left behind. Not even the 
President wants to say a word about us. We need more weeks of benefits 
now. We need hope for a better future like the rest of the unemployed. 
I don't think its right that some get benefits and not all! That's what 
was done with the tax cuts this last December, the Republicans said 
(ALL), should get help, so why should unemployment benefits be any 
different. There was a large cost for that small percent of the rich to 
get tax breaks, so when you look at the percentage of 99ers, Please 
remember the Republicans held out and stopped all for a small 
percentage no matter the cost!

                                 <F-dash>
                      Statement of William Milner
2/13/11

    I have worked all my adult life and unfortunately I have been 
unemployed for the last almost two years, I LOOK FOR WORK EVERYDAY I 
have gone on three interviews and have received that second call I'm 
respectfully asking that you pass this bill immediately we need the 
additional help!!!! PLEASE PASS THIS BILL!!!! PLEASE PASS THIS BILL!!!!

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
